<html>
<title> - EXAMINING U.S. COUNTERTERRORISM PRIORITIES AND STRATEGY ACROSS AFRICA'S SAHEL REGION</title>
<body><pre>[Senate Hearing 111-406]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-406

EXAMINING U.S. COUNTERTERRORISM PRIORITIES AND STRATEGY ACROSS AFRICA'S 
                              SAHEL REGION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
56-320 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            RUSSELL D. FEINGOLD, Wisconsin, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JIM DeMINT, South Carolina
EDWARD E. KAUFMAN, Delaware          BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma

                              (ii)        









                            C O N T E N T S

                              ----------                              
                                                                   Page

Benjamin, Hon. Daniel, Coordinator for Counterterrorism, 
  Department of State, Washington, DC............................     7
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    47
Carson, Hon. Johnnie, Assistant Secretary for African Affairs, 
  Department of State, Washington, DC............................     3
    Prepared statement...........................................     5
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    45
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Gast, Earl, Senior Deputy Assistant Administrator for Africa, 
  U.S. Agency for International Development, Washington, DC......    12
    Prepared statement...........................................    13
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    50
Gutelius, Dr. David, founder and partner, Ishtirak, consulting 
  senior fellow, Johns Hopkins University Applied Physics 
  Laboratory, San Francisco, CA..................................    32
    Prepared statement...........................................    33
Huddleston, Hon. Vicki, Deputy Assistant Secretary for Africa, 
  Department of Defense, Washington, DC..........................    15
    Prepared statement...........................................    17
    Responses to questions submitted for the record by Senator 
      Russell D. Feingold........................................    48
Kennedy-Boudali, Lianne, senior project associate, RAND 
  Corporation, Arlington, VA.....................................    25
    Prepared statement...........................................    27

                                 (iii)

  

 
EXAMINING U.S. COUNTERTERRORISM PRIORITIES AND STRATEGY ACROSS AFRICA'S 
                              SAHEL REGION

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2009

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee) presiding.
    Present: Senators Feingold and Isakson.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. This hearing will come to order.
    Good morning everybody. I apologize in advance; it looks 
like we're going to have three votes or so, starting at about 
11:15, maybe a little earlier. We'll see if we can get through 
the first panel by then, but I do appreciate everybody's 
patience if we have to take a break in the hearing.
    On behalf of the Senate Foreign Relations Subcommittee on 
African Affairs, I welcome all of you to this hearing entitled 
``Examining U.S. Counterterrorism Priorities and Strategy 
Across Africa's Sahel Region.'' I'm honored to be joined later 
by the ranking member of the subcommittee, Senator Isakson. 
When he arrives, I'll ask him to deliver some opening remarks, 
as well.
    Let me first clarify what constitutes the Sahel region. 
This region covers those territories on the southern border and 
directly to the south of the Sahara Desert. For our discussion 
today, it includes parts or all of Burkina Faso, Chad, Mali, 
Mauritania, Niger, Nigeria, and Senegal. The Sahel is a region 
on the front lines of climate change, facing the challenges of 
soil erosion, deforestation, and desertification. It also is a 
vast land-area home to nomadic communities, many of them 
minority ethnic groups, which have long been in conflict with 
some of the centralized state authorities in those regions.
    Over the years, this region's long porous borders and 
ungoverned spaces have been exploited by criminal groups, 
particularly for the trafficking of drugs, weapons, illicit 
goods, and people. And over the last decade, there's been 
increasing concern about the potential for violent extremist 
groups to do so, as well.
    Counterterrorism officials have particularly focused on an
al-Qaeda affiliate, a group known as ``al-Qaeda in the Lands of 
the Islamic Maghreb.'' AQIM, as it's known, emerged in Algeria 
and has primarily operated in North Africa, but it has extended 
its region to parts of the Sahel, and could expand farther. 
Some U.S. intelligence officials have expressed concern at 
AQIM's increasing capabilities and more sophisticated attacks.
    Today's hearing is an opportunity to assess the threat 
posed by AQIM amidst other transnational threats in the Sahel 
region. This is yet another reminder that al-Qaeda is operating 
in countries around the globe, and our fight against them, 
therefore, must be global, too.
    The administration is right to focus attention on the 
Pakistan/Afghanistan region, but we cannot lose sight of other 
places where al-Qaeda is seeking to gain ground. As we have 
seen in Somalia and Yemen, weak states, chronic instability, 
ungoverned spaces, and unresolved local tensions can create 
almost ideal safe havens in which terrorists can recruit and 
operate. Several parts of the Sahel region include that same 
mix of ingredients, and the danger they pose, not just to 
regional security, but to our own national security, is real.
    At the same time, crafting an effective counterterrorism 
strategy toward the Sahel requires an appreciation of the 
unique local conditions that al-Qaeda seeks to exploit and the 
factors that could motivate individuals to join their struggle. 
We need to understand ongoing changes in conflicts--political, 
economic, and social--that are shaping this region. Without an 
appreciation of these local dynamics, injecting new U.S. 
resources into the region could actually end up complicating or 
even exacerbating the threat, rather than mitigating it. We 
need to seriously consider how short-term activities relate to 
our long-term goals of promoting good governance and the rule 
of law.
    In 2005, the Bush administration launched the Tran-Sahara 
Counterterrorism Partnership to enhance the capabilities of 
governments across the Sahel, as well as in Algeria, Morocco, 
and Tunisia, for counterterrorism and to help confront the 
spread of extremist ideology. Nearly $500 million has been 
allocated for this program since fiscal year 2005, yet nearly 5 
years later it remains unclear to what extent these efforts 
have been successful.
    Today's hearing is an opportunity to review our approach to 
counterterrorism in the Sahel, the continuing challenges, and 
what progress has been made. Because this is not in a 
classified setting, I realize we are limited in how much we can 
get into specific activities. But, we can discuss the overall 
strategy and priorities of our counterterrorism efforts in the 
Sahel and the roles played by different implementing agencies. 
I believe it's important that we can explain to the American 
people, at least generally, what we're doing and why they 
should be confident that our efforts are making progress.
    Let me just briefly introduce our witnesses this morning. 
I'm very pleased that we have such great interagency lineup for 
our first panel: the Department of Defense, Deputy Assistant 
Secretary for Africa, Vicki Huddleston; from USAID, Senior 
Deputy Assistant Administrator for Africa, Earl Gast; and from 
the State Department, Assistant Secretary for African Affairs, 
Johnnie Carson.
    In addition, State is also represented by its coordinator 
for counterterrorism, Daniel Benjamin. Ambassador Benjamin's 
presence here is particularly important because, while this 
subcommittee approaches issues from the lens of sub-Saharan 
Africa, the threat from AQIM cuts across regions and the 
traditional boundaries of State Department's regional bureaus.
    So, I thank all of you for being here, and I ask that each 
of you keep your remarks to 5 minutes or less so that we have 
enough time for questions and discussion. And, of course, we 
will submit your longer written statements for the record.
    Our second panel, we'll hear from Dr. David Gutelius, who 
brings together a unique mix of expertise on this region and 
technological innovation and media strategies. Dr. Gutelius was 
a visiting professor at Stanford University. He founded and is 
currently a partner of Ishtirak, a Middle East and Islamic 
Africa-focused consultancy. He's also a consulting senior 
fellow at the Johns Hopkins University Applied Physics 
Laboratory's National Security Analysis Department.
    We also hear from Lianne Kennedy-Boudali, who has done 
research and written about the history and evolution of armed 
groups in Maghreb up in Sahel regions. Ms. Kennedy-Boudali was 
a senior associate and assistant professor at the Combating 
Terrorism Center at West Point and now works as a senior 
project associate at the RAND Corporation.
    So, again, I thank all of our witnesses for being here. And 
now I will--unless the ranking member shows up in the next 
couple of seconds. So, I'll turn to Ms. Huddleston--nope, he 
came just as I was about to turn to the witnesses.
    I'm pleased to recognize, for his opening statement, 
Senator Johnny Isakson, the ranking member.
    Senator Isakson. I will waive my opening statement, except 
to say welcome to Secretary Carson--it's good to see you 
again--and all of our witnesses. Counterterrorism is of 
particular interest. In my travels to Africa, I've been very 
interested in seeing our engagement on that continent, because 
the potential for some very dangerous things to happen very 
well could take place.
    So, I welcome you all here. I apologize, Mr. Chairman, for 
being late, and it's good to be with you.
    Senator Feingold. I thank you, Senator Isakson, and we'll 
begin with Honorable Johnnie Carson.

   STATEMENT OF HON. JOHNNIE CARSON, ASSISTANT SECRETARY FOR 
      AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Carson. Chairman Feingold, Ranking Member 
Isakson, other members of the committee, I welcome the 
opportunity to appear before you today to discuss our support 
to the countries of Africa's Sahel region to approve their 
long-term security and to constrict the ability of al-Qaeda in 
the Islamic Maghreb.
    I have a longer statement that I would like to submit for 
the record, if I may.
    Senator Feingold. Without objection.
    Ambassador Carson. Terrorism in the Sahel has become an 
issue of increasing concern. Over the past 5 years, AQIM and 
its predecessor organization, the Salafist Group for Preaching 
and Combat, GSPC, have stepped up their activities across the 
Sahel. In the past 6 months alone, AQIM has been implicated in 
the killing of an American nongovernmental organization--NGO--
worker in Nouakchott, Mauritania; the execution of a British 
hostage in Mali; the assassination of a senior Malian military 
officer; and an attempted suicide bombing against the French 
Embassy in Nouakchott.
    The countries in the region have recognized the problem and 
have intensified their efforts against AQIM. Algeria recently 
hosted regional chiefs of defense to promote improved 
cooperation, and we understand that Mali will organize a heads-
of-state meeting in Bamako to address the situation soon.
    However, all the countries in the Sahel face daunting 
challenges. They are among the poorest countries in the world 
and lack the resources to develop effective antiterrorism 
programs on their own. They are also vast countries, stretching 
over thousands of miles, where government services and 
authority are weak or nonexistent. They are preoccupied with 
critical humanitarian and development issues, and, in some 
cases, terrorism is not their most pressing challenge.
    The United States is committed to helping these countries 
address the counterterrorism problems that these states face in 
the Sahel. However, we believe that this is best done in a 
supporting role rather than a leading role. We want to avoid 
undertaking actions that could make the situation worse. We 
must consult with the governments of the region to assess their 
needs. We must encourage regional collaboration and cooperation 
across borders. We must consult with our European partners and 
urge them to be helpful. We have emphasized to those partners 
that, while the United States will do its part, the burden must 
be shared by us all. We have also stressed that we must make 
sure that the assistance we in the United States provide does 
not aggravate longstanding historical and cultural problems 
that exist in some of the states in the region.
    Algeria, Mali, Mauritania, and others in the region can 
manage and contain this issue if they work together and receive 
appropriate encouragement and support from countries like the 
United States. We should not seek to take this issue over. It 
is not ours and doing so might have negative consequences for 
U.S. interests over the long term.
    We must also recognize that the governments in the region 
have explicitly stated that the Sahel's security is the 
responsibility of the countries in the region. They have not 
asked the United States to take on a leadership role in the 
counterterrorism efforts. In fact, they have clearly signaled 
that a more visible or militarily proactive posture by the 
United States might, in some instances, be counterproductive.
    The focal point of our effort has been the Trans-Sahara 
Counterterrorism Partnership. Created in 2005, TSCTP allocates 
between $120 and $150 million per year for programs in 10 
countries. TSCTP originally included Algeria, Chad, Mali, 
Morocco, Mauritania, Niger, Nigeria, Senegal, and Tunisia. 
Burkina Faso was added in 2009.
    The TSCTP program reflects our recognition that sporadic 
engagements without adequate followup or sustainment would fail 
to achieve the meaningful, long-lasting results that we seek in 
the region. The emphasis, therefore, has been placed on 
addressing key capacity shortfalls that could be addressed over 
a period of years in these countries. The program draws 
resources and expertise from multiple agencies in the U.S. 
Government, including the State Department, the Department of 
Defense, and USAID.
    TSCTP does not provide a one-size-fits-all assistance 
package. As the current threat levels prevail in the region, we 
look at the states on a case-by-case basis and adjust the 
program to meet the needs of the countries.
    We will continue to work with the countries in the region 
to identify capacity, weaknesses, and to ensure that TSCTP 
programs are adequately funded.
    Mr. Chairman, thank you for this opportunity to make this 
brief statement, and I will be happy to answer questions.
    [The prepared statement of Ambassador Carson follows:]

 Prepared Statement of Johnnie Carson, Assistant Secretary for African 
              Affairs, Department of State, Washington, DC

    Chairman Feingold, Ranking Member Isakson, and members of the 
committee, I welcome the opportunity to appear before you today to 
discuss our counterterrorism approach in Africa's Sahel region. I look 
forward to working with the Congress, and especially with this 
committee, to identify appropriate tools to support the efforts of the 
countries in the region to improve their long-term security and 
constrict the ability of al-Qaeda in the Islamic Maghreb (AQIM) and a 
variety of criminal networks to exploit the area's vast territory.
    This hearing is very timely. While the security challenges in the 
Sahel are not new, several attacks in recent months against African and 
Western targets have drawn additional focus to the situation. Key 
countries in the area, including Algeria, Mali, and Mauritania, have 
intensified efforts to coordinate their activities against AQIM and 
address the region's short, medium, and long-term vulnerabilities. At 
the same time, we have consulted with African and European partners to 
identify areas where we can more effectively support regional efforts 
to improve the security environment in the Sahel over the long term.
    The United States can play a helpful supporting role in the 
regional effort, but we must avoid taking actions that could 
unintentionally increase local tensions or lend credibility to AQIM's 
claims of legitimacy. First and foremost, we must be sensitive to local 
political dynamics and avoid precipitous actions which exacerbate 
longstanding and often bloody conflicts.
    AQIM's ideology and violent tactics are antithetical to the vast 
majority of people in the region and the group's ability to mobilize 
significant popular support for its objectives has been largely 
frustrated. It has failed to build and sustain meaningful alliances 
with insurgencies and criminal networks operating in the region. In 
fact, AQIM's murder of a Malian military officer this summer, the 
unprecedented execution of a British hostage, and the murder of an 
American citizen in Mauritania may have caused some groups in Northern 
Mali to sever opportunistic economic arrangements occasionally 
established to supplement local groups' efforts to survive in the 
region's austere environment. By contrast, the perceptions of the 
United States have been generally favorable throughout the Sahel, even 
during periods when our popularity around the world declined. It is 
instructive that a 2008 poll involving 18 Muslim countries revealed 
that Mauritanians had the highest opinion of the United States.
    The countries in the region continue to demonstrate the political 
will to combat terrorism and transnational crime. They have explicitly 
stated that the Sahel's security is the responsibility of the countries 
in the region. They have not asked the United States to take on a 
leadership role in counterterrorism efforts and have, in fact, clearly 
signaled that a more visible or militarily proactive posture by the 
United States would be counterproductive. We fully concur that the 
appropriate roles for the United States and other third countries with 
even more significant interests in the region must be to support 
regional security efforts while continuing to provide meaningful 
development assistance to the more remote areas. Moreover, we have 
emphasized that while the United States will do its part, the burden 
must be shared.
    We recognize, however, that the security environment in the Sahel 
requires sustained attention to address a wide range of vulnerabilities 
and capacity deficits. There is insufficient capacity to monitor and 
protect immense swaths of largely ungoverned or poorly governed 
territory. The arid northern half of Mali alone covers an area larger 
than Texas. Niger is the poorest country in the world according to the 
United Nations Development Program (UNDP) and Mauritania and Mali rank 
near the bottom of the Human Development Index scale.
    The vulnerability of the northern Sahel has not only led AQIM to 
seek out safe havens in the region, but has also enabled the operations 
of a range of transnational criminal networks. Criminal traffickers in 
human beings, weapons, and narcotics also exploit parts of the region. 
West Africa has emerged as a major transshipment area for cocaine 
flowing from South America to Europe. Narcotrafficking poses a direct 
threat to U.S. interests since the proceeds of cocaine trafficked 
through the region generally flow back to Latin American organizations 
moving drugs to the United States.
    The committee has asked how our counterterrorism efforts in the 
Sahel relate to our long-term goals of good governance, civilian 
control over security forces, and respect for human rights. The first 
priority President Obama has identified for our Africa policy is 
helping to build strong and stable democracies on the continent. This 
is essential in West Africa. In recent years, the region has witnessed 
two military coups in Mauritania, deeply flawed elections in Nigeria, 
and an undemocratic seizure of power in Niger. Our experience in the 
region has underscored the urgency of improving governance, strongly 
promoting the rule of law, developing durable political and economic 
institutions at all levels of society, and maintaining professional 
security forces under civilian control.
    Meaningful progress in these areas is crucial to the success of 
ongoing efforts against AQIM and other criminal networks. The groups 
are drawn to areas where they can take advantage of political and 
economic vulnerabilities to safeguard their operating spaces and 
lifelines, cross borders with impunity, and attract recruits. They 
benefit when security forces and border guards lack the necessary 
training, equipment, intelligence, and mobility to disrupt their 
activities. Their cause is advanced when human rights abuses undermine 
the credibility of security forces. Terrorists and criminal 
organizations also take advantage of weak or corrupt criminal justice 
systems unable to effectively investigate, prosecute and incarcerate 
all forms of criminals.
    Underdevelopment in key areas represents a critical security 
challenge in the Sahel. The region is extremely diverse and the sources 
of insecurity in the region vary. In Northern Mali, for example, 
insecurity in isolated border areas and along traditional smuggling 
routes is perpetuated by unmet economic expectations and the lack of 
legitimate alternatives to smuggling or opportunistic commerce with 
criminal networks. Mali is one of Africa's most stable democracies, but 
its efforts to address insecurity in the northern part of the country 
are severely hampered by poor infrastructure and the inability to 
provide adequate service delivery and educational and vocational 
opportunities to isolated areas. This dynamic can become particularly 
problematic in cases where AQIM has provided small amounts of food and 
other consumables to generate good will or at least tolerance from 
groups living in their vicinity.
    Although AQIM's attempts to recruit in Mali and elsewhere in the 
Sahel have been largely unsuccessful, its limited successes in 
countries such as Mauritania can largely be traced to its ability to 
capitalize on the frustration among the young over insufficient 
educational or vocational opportunities. AQIM has also attracted 
recruits and material support from isolated communities or 
neighborhoods in Mauritania and elsewhere that lack alternatives to 
schools, media, or networking centers that promote violent extremism.
    The United States primary instrument to advance counterterrorism 
objectives in the Sahel and the Maghreb is the Trans-Sahara 
Counterterrorism Partnership (TSCTP). TSCTP is a multiyear commitment 
designed to support partner country efforts in the Sahel and the 
Maghreb to constrict and ultimately eliminate the ability of terrorist 
organization to exploit the region. The rationale and overarching 
strategy for TSCTP was approved by a National Security Council (NSC) 
Deputies Committee in 2005. TSCTP originally included Algeria, Chad, 
Mali, Morocco, Mauritania, Niger, Nigeria, Senegal, and Tunisia; 
Burkina Faso was added in 2009.
    TSCTP serves two primary purposes. The program identifies and 
mobilizes resources from throughout the interagency to support 
sustained efforts to address violent extremism in the region. It was 
understood when TSCTP was created that sporadic engagements without 
adequate followup or sustainment would fail to achieve meaningful long-
term results in a region with a multitude of basic needs. The emphasis 
was therefore placed on key capacity deficits that could be addressed 
over a period of years. The program draws resources and expertise from 
multiple agencies in the U.S. Government including the State 
Department, the Department of Defense, and USAID. As the threat levels, 
political environments, and material needs differ substantially among 
the partner countries, most engagements and assistance packages under 
TSCTP are tailored to fit the priorities of the individual countries.
    TSCTP was also designed to coordinate the activities of the various 
implementing agencies. The coordination takes place at several levels. 
Action Officers representing the various agencies meet periodically in 
Washington to coordinate activities and share information. 
Representatives from Washington and AFRICOM also meet regularly with 
our Embassies in TSCTP countries. The first line of coordination and 
oversight takes place at our Embassies. While various assessments and 
inputs from throughout the interagency inform decisions regarding TSCTP 
programming, Chiefs of Mission must concur with all proposed 
activities. They are best placed to understand the immediate and long-
term implications of various activities and are ultimately the primary 
interlocutors with the host countries.
    Forming a definitive conclusion at this relatively early stage 
regarding whether our counterterrorism approach in the Sahel is working 
is difficult, but we believe that we are making important progress. For 
example, TSCTP resources contributed to training and equipping more 
capable and professional security forces in Mauritania. We believe that 
our work with Mali to support more professional units capable of 
improving the security environment in the country will have future 
benefits if they are sustained. Our public affairs teams and USAID are 
implementing a range of beneficial exchanges and projects in Mali and 
promoting outreach to communities potentially vulnerable to extremism 
in Mauritania, Chad, Senegal, and elsewhere.
    The decision in 2005 to focus on long-term capacity-building rather 
than search for quick fixes was clearly correct, even more so given the 
limited absorptive capacity of these countries. Clear victories against 
the underlying security and developmental challenges in the region are 
unlikely to clearly announce themselves in the near term, but I am 
confident that a steady and patient approach provides the best 
opportunity for success.
    The recognition that we must take a holistic approach involving 
multiple agencies was also correct. Efforts to improve interagency 
coordination and the vital coordination between our missions and 
program managers in Washington and Stuttgart have been crucial. We 
continue to seek a balance between the financial resources for the 
development and diplomatic pieces of TSCTP and funding devoted to 
military-to-military activities. We will continue to work toward a 
balanced approach envisioned when the program was created.
    Mr. Chairman and members of the committee, I want to thank you for 
the opportunity to appear before you today. I will be happy to answer 
any questions you have.

    Senator Feingold. Thank you, Mr. Carson.
    Mr. Benjamin.

      STATEMENT OF HON. DANIEL BENJAMIN, COORDINATOR FOR 
     COUNTERTERRORISM, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Benjamin. Senator Feingold, Ranking Member 
Senator Isakson, thank you very much for the opportunity to 
speak to you today about the Department's role in countering 
terrorism in the Sahel region.
    Al-Qaeda in the Islamic Maghreb continues to menace parts 
of the Maghreb and the Sahel. In the north, it is frustrated by 
Algeria's effective counterterrorism operations, but in parts 
of the Sahel, it continues to operate with considerable 
impunity.
    We are working bilaterally, regionally, and multilaterally 
to develop the capacity of countries in the region to control 
their sovereign territory, disrupt terrorist conspiracies, and 
counter those who advocate violence. A well-thought-out, long-
term approach provides the best opportunity to ensure our 
security and that of our friends and allies against the 
terrorist threats from this region.
    AQIM has failed to meet its key objectives and, under 
pressure from Algerian security forces, is on the defensive in 
Algeria. AQIM is financially strapped; indeed, it appears that 
the Algerians have AQIM in the northeastern part of the country 
increasingly contained and marginalized. The group has largely 
worn out its welcome in the Kabylie region, where residents 
have become increasingly resentful of its presence.
    One of the central questions about AQIM has long been 
whether it would be able to establish itself in Europe and 
carry out attacks there. Some of our closest counterterrorism 
partners in Europe have identified this possibility of 
infiltration as one of their foremost concerns. That said, we 
currently view the near-term possibility of such an expansion 
of operations as less likely than it was just a few years ago.
    In the Sahel, however, the picture is different. AQIM 
maintains two separate groups of fighters in northern Mali and 
has recently increased attacks and kidnappings, including 
against Western targets.
    The group relies, to a considerable extent, on hostage-
taking for ransom while carrying out murders and low-level 
attacks to garner media attention. In the last 2 years, AQIM in 
the Sahel has stepped up the pace. It has kidnapped two 
Austrian tourists along the Tunisian/Algerian border in early 
2008; two Canadian diplomats in Niger in December 2008; four 
European tourists near the Mali/Niger border in January of this 
year.
    One of the Europeans, a British hostage, was subsequently 
murdered by AQIM, as you all know.
    AQIM has also increased other kinds of attacks in the 
Sahel. This year the group killed a Malian official in northern 
Mali; an American NGO worker in nearby Mauritania; and 
attempted a suicide bombing outside the French Embassy in 
Mauritania.
    Despite the uptick in violence, hostage-taking, and the 
murder of individual Western citizens, we believe that these 
operations reveal some AQIM weaknesses. AQIM has failed to 
conduct attacks or operations in Morocco, Tunisia, or Libya. 
The Muslim population in the Sahel and the Maghreb, as a whole, 
still reject AQIM's extremism. There are exceptions, however, 
and the increase in AQIM recruitment in Mauritania is 
troubling.
    That said, if we play our cards right, we can further 
contain and marginalize AQIM's threat to U.S. interests, and we 
can make investments that will be productive and reasonable.
    We're striving to build countries' capacity through long-
term programs such as the Trans-Sahara Counterterrorism 
Partnership. We're also working closely with other key 
international partners to ensure that our collective efforts in 
the region are well targeted, well coordinated, and effective.
    Our quiet, but solid support for their counterterrorism--
that is, those in the region--has emboldened our partners to 
stand up to extremism. We have been, if you will, leading from 
the side. These partners have shown the will to take on 
terrorists in the past, and we expect that that will continue.
    Our support to military and law enforcement capacity-
building has led to stronger controlled borders and remote 
spaces, and that continues to improve. Our programs for 
countering violent extremism--such as radio programming, 
messaging from moderate leaders, and prison reform--have 
bolstered the region's traditionally moderate inclinations.
    We believe that our relatively modest efforts in the region 
are paying off and are worthy of continuation. A steady, long-
term commitment to building effective security in the region 
will benefit the United States by enabling others to take the 
lead in stopping terrorists in their own countries before those 
threats reach our borders.
    These countries have made it clear that they do not want 
the United States to take a more direct or visible operational 
role, but welcome assistance from the United States and other 
third countries.
    We are particularly pleased that our regional partners are 
working together to weaken AQIM, motivated in part by the 
group's recent atrocities. In August, Algeria hosted a 
conference for high-level defense ministry representatives from 
Mali, Niger, Mauritania, and Algeria to coordinate AQIM 
efforts, and we expect Mali to follow that up with a regional 
heads-of-state summit before the end of the year.
    We're also working with our European partners, with whom we 
met in Paris last month, on this issue, specifically to 
coordinate assistance to our partners in the Sahel and the 
Maghreb. Additionally, we have met with Canadian officials to 
discuss cooperation in the wake of the hostage-taking of one of 
their diplomats.
    I should add that capacity-building is not the only 
contribution the Western partners can make to defeating 
terrorism in the region. It is also imperative that we do what 
we can to remove incentives for kidnapping. This administration 
plans to make a broader acceptance of the no-concessions 
approach an important initiative.
    In closing, let me reiterate. We welcome the readiness of 
our partners in the region to take the lead in confronting 
AQIM, and we are pleased about the cooperation among our 
Western allies as we take effective steps to help build 
security in the Sahel. This cooperation, I strongly believe, 
will help fulfill the vision of working in partnership with 
other nations in troubled areas that has been a hallmark of 
President Obama's foreign policy. I believe, also, that as we 
continue to provide support using the TSCTP as our primary 
tool, we will achieve our goal of reducing the danger AQIM 
possess to the region and to American interests.
    [The prepared statement of Ambassador Benjamin follows:]

      Prepared Statement of Hon. Daniel Benjamin, Coordinator for 
         Counterterrorism, Department of State, Washington, DC

    Senator Feingold, Ranking Member Senator Isakson, members of the 
committee, thank you for the invitation to speak to you today about the 
Department's role in countering terrorism in the Sahel region. Al-Qaeda 
in the Islamic Maghreb (AQIM) continues to menace parts of the Maghreb 
and the Sahel. In the north, it is frustrated by Algeria's effective 
counterterrorism operations, but in parts of the Sahel, it continues to 
operate with significant impunity. We are working bilaterally, 
regionally, and multilaterally, to develop their capacity to control 
their sovereign territory, effectively disrupt terrorist attacks, and 
counter those who advocate violence. A well-thought-out, long-term 
approach provides the best opportunity to ensure our security and that 
of our friends and allies against the terrorist threats from this 
region.
    AQIM has failed to meet its key objectives and, under pressure from 
Algerian security forces, is on the defensive in Algeria. AQIM is 
financially strapped, particularly in Algeria, and unable to reach its 
recruiting goals. In the Sahel, they are also having difficulties 
recruiting although the influx of Mauritanian recruits has meant that 
their manpower situation is not as critical as in the north.
    AQIM has historically focused on Algerian targets in the 
northeastern portion of Algeria. After AQIM's 2006 merger with al-
Qaeda, the group has continued to attack the Algerian Government and 
military, while expanding its targeting of Western interests in the 
region. In December 2007, the group conducted sophisticated dual 
suicide bombings of both the Algerian Constitutional Council and U.N. 
office buildings in Algiers.
    Since then, however, the group's fortunes have been ebbing. AQIM 
has been unable to conduct large-scale attacks since summer of 2008, in 
part due to pressure from Algerian forces, which have achieved 
important successes in breaking up extremist cells and disrupting 
operations. Increasingly, it appears that the Algerians have AQIM in 
northeastern part of the country increasingly contained and 
marginalized. Nonetheless, AQIM has continued to conduct low-level 
attacks in northeastern Algeria by carrying out ambushes, laying mines, 
and using small explosives, primarily against military checkpoints, 
gendarmes, police, and army vehicles. AQIM has also largely worn out 
its welcome in the Kabylie region, where residents have become 
increasingly resentful of the group's presence. Although AQIM has never 
conducted attacks on U.S. diplomatic targets in Algeria, U.S. and 
Western business interests, particularly those linked to oil companies 
have been targeted in the past, and remain at risk.
    One of the central questions about AQIM has long been whether it 
would be able to establish itself in Europe and carry out attacks 
there. There is no question but that we need to take this possibility 
very seriously, especially in light of past attacks carried out by 
predecessors to AQIM such as Armed Islamic Group (GIA) in France. Some 
of our closest counterterrorism partners in Europe have identified this 
possibility of infiltration as one of their foremost concerns. That 
said, we view the near-term likelihood of such an expansion of 
operations as less likely than it was just a few years ago. This, in 
large measure, is because of the pressure on the group in Algeria.
    In the Sahel, the picture is different. AQIM maintains two separate 
groups of fighters in Northern Mali, and has recently increased attacks 
and kidnappings, including against Western targets. They rely to a 
considerable extent on hostage-taking for ransom while carrying out 
murders, and low-level attacks to garner media attention. In the last 2 
years, AQIM in the Sahel has stepped up the pace: Kidnapped two 
Austrian tourists along the Tunis-Algerian border in early 2008; two 
Canadian diplomats in Niger in December 2008; and four European 
tourists near the Mali/Niger border in January 2009. One of the 
Europeans, a British hostage, was subsequently murdered by AQIM.
    AQIM has also increased other kinds of attacks in the Sahel, 
although their capabilities still compare poorly with earlier AQIM 
operations in Algeria. This year, AQIM killed a Malian official in 
northern Mali, killed an American NGO worker in neighboring Mauritania, 
and attempted a suicide bombing outside the French Embassy in 
Mauritania. In 2007, AQIM fighters killed four French tourists in 
Mauritania. AQIM in the recent past has attacked Mauritania and Malian 
security units with some success as well, killing 12 Mauritanian 
soldiers and beheading them in one instance and annihilating a Malian 
unit searching for AQIM elements after the murder of the British 
citizen.
    Despite the uptick in violence, hostage-taking, and murder of 
individual Western citizens, we believe that these operations reveal 
some AQIM weaknesses. AQIM has failed to conduct attacks or operations 
in Morocco, Tunisia, or Libya. The Muslim population in the Sahel and 
Maghreb, as a whole, still rejects AQIM's extremism. There are 
exceptions, however, such as the increase in AQIM recruitment of 
Mauritanians, which is troubling.
    In the future, we view AQIM as posing a persistent threat to 
Western individuals in the Sahel, including our Embassies and 
diplomats, as well as tourists, business-people, and humanitarian 
workers. I would like to emphasize, however, that AQIM represents less 
of a threat to stability in its region than do al-Qaeda in the 
Federally Administered Territories in Pakistan or al-Qaeda in the 
Arabian Peninsula in Yemen. The group cannot seriously threaten 
governments or regional stability, nor is it poised to gain significant 
support among the region's population. AQIM cannot drive a wedge 
between the United States and its partners; it also cannot ignite an 
ethnic-based civil war as al-Qaeda in Iraq nearly did.
    If we play our cards right, we can further contain and marginalize 
AQIM's threat to U.S. interests, and the investments required are 
reasonable.
    We are striving to build countries' capacity through long-term 
programs such as the Trans-Sahara Counterterrorism Partnership (TSCTP). 
We are also working closely with other key international partners to 
ensure that our collective efforts in the region are well targeted, 
well coordinated, and effective.
    The Trans-Sahara Counterterrorism Partnership (TSCTP) is a 
multiyear, multiagency commitment designed to support partner efforts 
in the Sahel and the Maghreb to constrain and ultimately eliminate the 
ability of terrorist organizations to exploit the region. The program 
supports partner efforts to: Build long-term capacity to defeat 
terrorist organizations and facilitation networks; disrupt efforts to 
recruit, train, and provision terrorists and extremists; counter 
efforts to establish safe havens for terrorist organizations; disrupt 
foreign fighter networks that may attempt to operate outside the 
region; address underlying causes of radicalization; and increase the 
capacity of moderate leaders to positively influence vulnerable 
populations. It also supports efforts to increase regional and 
subregional cooperation and interoperability, in such areas as 
communication and intelligence-sharing.
    Our quiet but solid support for their counterterrorism efforts has 
emboldened our partners in the region to stand up to extremism. We have 
been ``leading from the side,'' if you will. These partners have shown 
the will to take on terrorists in the past. In 2003, for example, Mali, 
Niger, and Chad worked together to track down and arrest the extremist 
leader al-Para, who was infamous for taking 32 European hostages for 
ransom. In 2005, Algeria, Mauritania, and Mali conducted relatively 
successful joint combat operations against the Salafist Group for Call 
and Combat (GSPC), the precursor group to AQIM, in northwestern Mali. 
The United States supported these operations from the background by 
providing information and logistics support. Our capacity-building 
assistance has enabled Niger and Chad to take on antiregime rebels 
successfully. Our support to military and law enforcement capacity-
building has led to stronger control of borders and remote spaces, and 
that continues to improve. Our programs for countering violent 
extremism--such as radio programming, messaging from moderate leaders, 
prison reform, and university linkages, such as connecting U.S. 
universities to the Algerian university in Constantine--have bolstered 
the region's traditionally moderate inclinations.
    We believe that our relatively modest efforts in the region are 
paying off and are therefore worthy of continuation. A steady, long-
term commitment to building effective security in the region will 
benefit the United States by enabling others to take the lead in 
stopping terrorists in their own countries--before they reach our 
borders. These countries have made it clear that they do not want the 
United States to take a more direct or visible operational role, but 
welcome assistance from the United States and other third-party 
countries.
    The good news is that Algeria has been relatively successful 
against AQIM in northeastern Algeria. Despite its political turmoil, 
Mauritania has retained a strong interest in working with the United 
States on counterterrorism issues. Malian Government efforts, including 
a brief period of stepped-up military operations in mid-2009, have also 
helped to disrupt AQIM operations in the Sahel. We hope that our recent 
deliveries of trucks, communications gear, and nonlethal logistical 
supplies will reinforce an effort that suffered from physical/logistic 
incapacity issues. We are particularly pleased that our regional 
partners are working together to weaken AQIM, motivated in part by 
AQIM's most recent atrocities. In August, Algeria hosted a conference 
for high-level Defense Ministry representatives from Mali, Niger, 
Mauritania, and Algeria to coordinate anti-AQIM efforts. Mali plans to 
host a followup regional heads of state summit before the end of the 
year. That the region will to take on AQIM is clear; we should make 
clear our commitment to enable them to succeed. We remain troubled by 
the extra-constitutional actions taken by President Tandja in Niger to 
stay in power and we have halted our assistance to that country for the 
time being.
    We are also working with our European partners, whom we met with in 
Paris last month on this issue specifically, to coordinate assistance 
offered to our partners in the Sahel and Maghreb. At the Paris meeting, 
which included Stephane Gompertz and Olivier Chambard from the French 
Ministry of Foreign Affairs and Charlotte Montel from the Foreign 
Minister's Cabinet, as well as officials from the European Union, Great 
Britain, and Germany; discussions centered on cooperation in the 
future. Additionally, we have met with Canadian officials to discuss 
cooperation in the wake of the hostage taking of their diplomats. We 
share the opinion that the best way to bolster the regional will to 
defeat terrorism in the trans-Sahara will involve building the law 
enforcement and military capacity of our regional partners.
    I should add that building capacity is not the only contribution 
that Western partners can make to defeating terrorism in the region. It 
is also imperative that we do what we can to remove the incentives for 
kidnapping for ransom. The key will be for other countries to embrace a 
policy of no concessions to hostage takers. This administration plans 
to make broader acceptance of the no-concessions approach an important 
initiative. We have seen that, over time, kidnappers lose interest in 
nationals of countries that adhere to such a policy.
    In closing, let me reiterate: We welcome the readiness of our 
partners in the region to take the lead in confronting AQIM, and we are 
pleased about the cooperation among our Western allies as we take 
effective steps to help build security in the Sahel. This cooperation, 
I strongly believe, will help fulfill the vision of working in 
partnership with other nations in troubled areas that has been a 
hallmark of President Obama's foreign policy. I also believe that as we 
continue to provide support, using the Trans-Sahara Counterterrorism 
Partnership as our primary tool, we will achieve our goal of reducing 
the danger AQIM poses to the region and U.S. interests.

    Senator Feingold. Thank you very much, Mr. Benjamin.
    Mr. Gast.

 STATEMENT OF EARL GAST, SENIOR DEPUTY ASSISTANT ADMINISTRATOR 
    FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Gast. Good morning, Mr. Chairman and Ranking Member 
Isakson. Thank you for the opportunity to testify on the role 
USAID is playing in the fight against terrorism in Africa's 
Sahel region.
    Terrorism is a challenge that has plagued U.S. Government 
work around the world. In Africa, our efforts to improve 
governance and create opportunity are increasingly threatened 
by the emerging forces of violent extremism.
    To counter the forces that would derail our progress toward 
development in this fragile region, USAID is working in concert 
with the Departments of Defense and State in the Trans-Sahara 
Counterterrorism Partnership to define how development 
assistance can most effectively be used to contribute to long-
term peace and stability.
    Because of the dearth of information about the drivers of 
extremism in Africa that existed in 2005 when the program 
started, USAID commissioned two studies: one to aggregate and 
supplement what was known, and one to apply those findings to 
programs that would address those drivers.
    The studies highlighted the complex nature of extremism and 
showed that an overarching root cause, such as poverty, is 
often just one of many factors that contribute to 
radicalization; rather, a number of factors often work 
together. For instance, corruption undermines state capacity 
and facilitates the emergence of ungoverned or poorly governed 
spaces, which, in turn, may provide opportunities for extremist 
groups and local conflicts to flourish.
    These findings are critical to our decisionmaking and 
inform what interventions will be the most effective toward 
preventing drivers of extremism from spiraling out of control.
    Youth empowerment, education, media, and good governance 
are the four areas where we see the greatest opportunity for 
local partnerships and progress. Unlike traditional development 
programs, our counterextremism efforts often target narrow 
populations, and we specifically reach out to young men, the 
group most likely to be recruited by extremist groups.
    While it can be different to measure success in countering 
extremism, we have seen some progress in our efforts. As a 
result of our outreach in Chad, the Association of Nomads and 
Herders has created a youth branch of its organization. Youth 
participation in organizations like this one helps to build 
stronger ties with the community and provides youth with a 
voice in society. This type of empowerment can greatly reduce 
the feelings of marginalization that feeds into--recruitment 
into extremist groups.
    In the uranium mining areas of northern Niger, communities 
have formed listening clubs to discuss USAID-funded radio 
programs on good governance. One club even reports that they 
are pooling funds together to purchase a phone card so that 
they can call the radio station with feedback.
    But, despite the promise of these community-based efforts, 
national governance has seen a setback in Niger. The recent 
referendum and sham elections have done more to empower the 
current antidemocratic regime than to provide a voice for the 
people, and we are concerned about the path that regime is 
taking.
    For our programs to be successful, we must invest in strong 
local partnerships, and our methods of engagement must be 
nimble and creative. Because trends in extremism are fluid, we 
must constantly reassess our priorities, our progress, and our 
policies to ensure that our work is based on the realities of 
today.
    Toward this end, we are pleased with our strong and 
productive partnership in the interagency. Sustained engagement 
within U.S. Government, with other donor governments, and with 
our partners in the Trans-Sahara region will be the key to 
combating extremism today and securing peace and stability for 
years to come.
    Thank you, Mr. Chairman and Ranking Member Isakson.
    [The prepared statement of Mr. Gast follows:]

Prepared Statement of Earl Gast, Senior Deputy Assistant Administrator 
 for Africa, U.S. Agency for International Development, Washington, DC

    Good morning, Mr. Chairman, Ranking Member Isakson, and members of 
the subcommittee. Thank you for the opportunity to testify on the role 
USAID is playing in the fight against terrorism in Africa's Sahel 
region.
    Terrorism is a challenge that has plagued U.S. Government work 
around the world. In Africa, especially in the trans-Saharan region, 
our efforts to improve governance and create economic opportunity are 
increasingly threatened by the emerging forces of violent extremism. To 
counter the forces that would derail our progress toward development in 
this fragile region, USAID is working in concert with the Departments 
of Defense and State in the Trans-Sahara Counterterrorism Partnership 
(TSCTP). USAID has been committed to TSCTP since its inception in 2005, 
working to define how development assistance can most effectively be 
used to contribute to long-term peace and stability.
    Because of the dearth of information about extremism in Africa that 
existed when the partnership began, USAID commissioned two studies: one 
to aggregate and supplement what is known about the drivers of 
extremism in Africa, and one to take those findings and apply them to 
programs that could address those drivers. These exhaustive, peer-
reviewed studies have helped create the foundation on which we design 
our development programs.
    The studies highlighted the complex nature of drivers that lead to 
extremism and showed that an overarching ``root cause,'' such as 
poverty, is often just one of many factors that contribute indirectly 
to radicalization in Africa. Socioeconomic drivers such as social 
exclusion and unmet economic needs often contribute to the threat of 
violent extremism. Politically, extremism can be driven by the denial 
of political rights and civil liberties, or endemic corruption and 
impunity for well-connected elites. And broader cultural threats--to 
traditions, values or cultural space--also are drivers that may need to 
be addressed. Our research shows that these drivers are neither static 
nor globally consistent, and they evolve over time.
    A number of factors often work together to contribute to 
radicalization, and the full impact of one factor often depends on 
whether other factors are present at the same time. For instance, as 
noted in the study, someone who has been marginalized socially may only 
be radicalized if he also has the opportunity to form personal 
relationships and networks with violent extremists. A person who feels 
thoroughly estranged from mainstream society may drift into violent 
extremism groups, not primarily because of his anger at being excluded, 
but because social alienation fuels the types of personal relationships 
and group dynamics that, in turn, facilitate the turn to violent 
extremism. Along similar lines, pervasive corruption undermines state 
capacity, and facilitates the emergence of ``ungoverned,'' 
``undergoverned,'' ``misgoverned,'' or ``poorly governed'' spaces, 
which, in turn, may provide opportunities for violent extremist groups. 
In addition, failed or failing states are creating more space for local 
conflicts to flourish, which may then be co-opted or hijacked by 
transnational terrorist networks. These findings are critical to our 
policy and programming decisions and will inform what interventions 
will be the most effective toward preventing drivers from spiraling, 
how to monitor our progress, and how to integrate counterterrorism 
concerns into our future efforts.
    Combined with country assessments, these findings have led us to 
focus our work on maintaining low levels of violent extremist threat in 
Chad, Niger, Mali, and Mauritania by reducing the drivers we identified 
through activities that strengthen resiliencies and communicate 
messages among at-risk groups. USAID's TSCTP approach has concentrated 
on youth empowerment, education, media, and good governance--the four 
areas where we see the greatest opportunity for local partnerships and 
progress. Each activity is tailored to meet the specific threat levels, 
political environments, and material needs of each country. Unlike 
traditional development programs, our counterextremism efforts, when 
necessary, target narrow populations that generally aren't reached by 
other programs. We also specifically reach out to young men--the group 
most likely to be recruited by extremist groups.
    In Niger, we have been building the capacity of local leaders to 
launch and sustain community development projects. In Mali, the 11 
community radio stations we're building will reach 385,000 people with 
messages of peace-building, governance, and education. And in Chad, we 
are developing conflict mitigation and community stabilization projects 
that reach into the country's remote north.
    While it can be difficult to measure success in countering 
extremism, we have seen some progress in our efforts. As a result of 
our outreach in Chad, the Association of Nomads and Herders has created 
a youth branch of its organization, which has given those young men who 
participate greater stature in their community. The promotion of youth 
participation in organizations such as this one helps to build stronger 
ties between youth and their communities, and provides them with a 
voice in society. Empowering youth in this way can greatly reduce the 
feeling of marginalization that feeds recruitment into extremist 
groups.
    In northern Mali, where one of the underlying drivers of extremism 
is the lack of educational opportunity, a USAID radio-based program has 
trained more than 1,400 teachers in 217 schools.
    And in Niger, our early partnership with a local imam has directly 
resulted in more than a dozen madrassas adding a course on peace and 
tolerance to their curricula.
    In the uranium-mining areas of northern Niger communities have 
formed listening clubs to discuss USAID-funded radio programs on good 
governance. One listening club even reports that they are pooling funds 
to purchase a phone card so that they can call the radio station with 
their feedback.
    But despite the promise of these community-based efforts, national 
governance has seen a major setback in Niger. The recent referendum and 
sham elections have done more to empower the current antidemocratic 
regime than to provide a voice for the people, and we are concerned 
about the path the regime is taking. As a result, most development 
assistance has been frozen, and programs that work with local officials 
and provide skills training to young people are now on hold, though our 
work in media is ongoing.
    Similarly, in Mauritania, our work was curtailed by the August 2008 
coup d'etat. However, with Mauritania's return to constitutional order 
following the signing of the Dakar Accord and July 2009 elections, we 
are again focusing on strengthening democracy and human rights.
    The FY 2010 request for $32 million in development assistance and 
economic support funds for TSCTP seeks to build on these programs 
through more robust programming reaching a greater number of people, 
particularly youth, and a possible scaling-up of activities to 
additional countries such as Burkina Faso, where we plan to conduct an 
assessment in the near future. This continued funding in the base 
budget will allow USAID to develop long-term staffing and procurement 
plans to ensure we continue to make progress countering extremism 
through strategic development programming.
    For our programs to be successful, we must invest in strong local 
partnerships and our methods of engagement must be nimble and creative. 
Because trends in extremism are fluid, we must constantly reassess our 
priorities, our progress, and our policies to ensure that our work is 
based on the realities of today.
    Toward this end, we are pleased with our strong and productive 
partnership with the Departments of Defense and State on the planning 
and implementation of TSCTP, as well as our work with other donors on 
coordinating efforts to counter extremism. Sustained engagement--within 
the U.S. Government, with other donor governments, and with our 
partners in the trans-Sahara region--will be the key to combating 
extremism today and securing peace and stability for years to come.
    Thank you, Mr. Chairman, Ranking Senator Isakson, and members of 
the subcommittee for your continued support for USAID and our programs.

    Senator Feingold. Thank you very much, Mr. Gast.
    Ms. Huddleston.

STATEMENT OF HON. VICKI HUDDLESTON, DEPUTY ASSISTANT SECRETARY 
       FOR AFRICA, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ambassador Huddleston. Chairman Feingold and Ranking Member 
Isakson, thank you for the invitation to testify today about 
the Department of Defense's role in the Sahel region.
    DOD is the third pillar of the 3-D approach--diplomacy, 
development, and defense--in the Sahel and Maghreb region to 
address the challenges posed by al-Qaeda in the land of the 
Islamic Maghreb known, as you said, Mr. Chairman, as AQIM.
    Under the Trans-Sahara Counterterrorism Partnership, we 
have a comprehensive approach that addresses political, 
developmental, and defense issues. Assistant Secretary Johnnie 
Carson, Coordinator for Counterterrorism Dan Benjamin, and 
USAID Senior Deputy Assistant Administrator for Africa Earl 
Gast have all addressed the underlying political, ethnic, and 
geographic challenges. So, I will focus my remarks principally 
on the military dimension.
    The Department of Defense, through primarily the U.S. 
Africa Command, is supporting an overarching U.S. Government 
strategy to counter AQIM in the Sahel and north Africa. The 
principal DOD activity supporting the TSCTP effort is Operation 
Enduring Freedom-Trans-Sahara, OEF-TS, which focuses on 
building the capacity of regional militaries, so that they can 
counter the presence of AQIM and prevent terrorist operations 
in those areas.
    In addition, through our DOD military training, equipping, 
and advising activities, we seek to foster greater coordination 
and cooperation among the security institutions in the region.
    We believe that the long-term solution must be that each 
nation is capable of governing and controlling its territory 
with professional militaries accountable to civilian 
governments that have the support of local populations. If this 
is not the case, then those who espouse violent extremism and 
acts of terrorism, even if temporarily deterred, will return to 
the ungoverned spaces.
    DOD military cooperation programs and activities span a 
broad spectrum, from relatively simple outreach and 
humanitarian-related efforts through academic courses and 
education programs, to tactical and operational-level training 
and exercises, sharing military advise, information, and 
equipment, to enable our partner nations to carry out military 
operations.
    The U.S. Africa Command train and liaison missions use our 
special forces in support of the OEF-TS mission objectives 
throughout the Sahel.
    Algeria and Mali are critical to leading and resolving the 
challenge posed by AQIM. The AQIM leadership is headquartered 
in Algeria, the majority of its members are Algerian, and most 
of its attacks, as you mentioned, Mr. Chairman, have been 
against Algerian targets. AQIM's rear base, or safe haven, has 
been in Mali since 2002. Near neighbors, namely Mauritania, 
Niger, and Chad, have all been negatively impacted by AQIM 
attacks over the past several years.
    Our military relationship with Algeria is designed to 
support our mutual security interests. Algeria is working with 
Mali to bring the region together around a common solution 
acceptable to the countries that are directly involved. 
Algeria--indeed, the region and our allies, as Mr. Benjamin 
pointed out--believe that a solution is only possible when the 
response is coordinated and implemented through a regional 
approach.
    Mali is a major recipient of DOD military cooperation 
efforts in the Sahel, receiving equipment in FY 2009, through 
security assistance resources, as well as section 1206 
authority. In addition, DOD has carried out over 10 training 
events with the Malian military throughout the year, an 
extremely high tempo for operations and tactical training.
    President Amadou Toure and the chief of the Malian 
military, General Poudiougou, have consistently expressed their 
appreciation for our assistance in helping them address the 
challenges posed by AQIM, and President Toure has said that he 
is committed to a regional summit to coordinate efforts across 
the board to counter AQIM.
    DOD military cooperation activities with Mauritania were 
suspended in August 2008, following the military coup there. 
Military cooperation is now restarting, following this 
country's return to a constitutional system in July 2009. 
AFRICOM planning has already begun, with exercises and training 
to start after January 2010, and possibly equipment enhancement 
starting at the end of FY10. Unfortunately, our cooperation 
with Niger is limited because of President Tandja's suspension 
of the constitution. U.S. military cooperation with Niger prior 
to January 2008 was good and similar in scope and effort to the 
current activities in Mali. We hope that President Tandja will 
return to a democratic and constitutional framework so that 
AFRICOM can again work with Niger.
    Mr. Chairman and Ranking Member----
    Senator Feingold. Let me ask you to conclude, if I could.
    Ambassador Huddleston [continuing]. Oops--your invitation 
letter asked me to address our interagency coordination related 
to our Sahel programs. The Trans-Sahara Counterterrorism 
Partnership is a good example of bringing together State, 
USAID, and DOD to address an issue that impacts the stability 
and growth up the north and west Africa.
    Thank you for this opportunity to discuss DOD's efforts and 
AFRICOM's role as part of the larger USG government effort in 
addressing the challenges posed by AQIM in the Sahel and 
Maghreb regions of Africa. My colleagues and I look forward to 
answering your questions.
    [The prepared statement of Ambassador Huddleston follows:]

Prepared Statement of Hon. Vicki Huddleston, Deputy Assistant Secretary 
            for Africa, Department of State, Washington, DC

    Senator Feingold, Senator Isakson, members of the committee, thank 
you for the invitation to speak to you today about DOD's role in the 
Sahel region. DOD is the third pillar of the ``3-D approach--Diplomacy, 
Development, and Defense--in the Sahel and Maghreb region to address 
the challenges posed by al-Qaeda in the Lands of the Islamic Maghreb 
(AQIM).
    The DOD through primarily U.S. Africa Command (USAFRICOM) is 
supporting an overarching U.S. Government (USG) strategy to counter 
terrorism--specifically al-Qaeda in the Lands of the Islamic Maghreb 
(AQIM)--in the Sahel and North Africa. The principal tools for doing so 
are the Trans-Sahara Counterterrorism Partnership (TSCTP) and Operation 
Enduring Freedom--Trans-Sahara (OEF-TS), which seek to build the 
capacity of regional militaries so that they can counter the presence 
of AQIM and prevent their operations within their countries. In 
addition, through our military training, equipping, and advising 
efforts, we seek to foster greater coordination and cooperation among 
the security institutions in the region. We believe that the long-term 
solution must be that each nation is capable of controlling its 
territory because it has the support of it citizens while maintaining 
the military capacity to ensure stability. If this is not the case, 
then those who espouse violent extremism and acts of terrorism, even if 
temporarily defeated, will return to the ungoverned spaces.
    Under TSCTP we have a comprehensive approach that addresses 
political, developmental, and defense issues. Assistant Secretary 
Johnnie Carson, Coordinator for Counterterrorism Dan Benjamin, and 
USAID Acting Administrator for Africa Earl Gast, have addressed the 
underlining political, ethnic, and geographic challenges, so I will 
focus my remarks principally on the military dimension. However, the 
military aspect of our combined strategy cannot effectively move 
forward without the political will and buy-in by the regional partners 
themselves.
    Algeria and Mali are critical to leading and resolving the AQIM 
challenge. The AQIM leadership is headquartered in Algeria and most of 
its attacks have been against Algerian targets. The majority of its 
members are Algerian; however, Mauritanians now make up a substantial 
number of AQIM's foot soldiers. AQIM's rear base or safe haven has been 
in Mali since 2002, when its predecessor organization, the Salafist 
Group for Preaching and Combat (GSPC), moved 15 European hostages into 
the Malian Sahara Desert from Algeria. Near neighbors, namely 
Mauritania, Niger, and Chad, have all been negatively impacted over the 
past several years by the GSPC and its successor AQIM. Burkina Faso, 
Nigeria, Libya, and Morocco, could also be future targets of 
opportunity where AQIM could attempt to recruit, link up with like-
minded organizations, or carry out terrorists attacks.
    I recently met with the Algerian leadership, including the Minister 
of State for African and Maghreb Affairs, the Presidential Advisor on 
Terrorism, and the Minister-Delegate for the Ministry of National 
Defense, who all expressed their desire not only to cooperate with the 
USG and our allies, but also to lead the region in facing this 
challenge. To this end. Algeria has already moved forward by organizing 
in August of this year a meeting of the military Chiefs of Defense 
(CHODs) of Mali, Mauritania, and Niger in Tamanrraset, Algeria. The 
CHODs agreed to establish a united command which will rotate among 
these militaries. We believe that this initiative is critical to 
dealing with the AQIM challenge.
    The other side of regional military coordination is the political 
commitment among the regional partners to a comprehensive strategy that 
addresses the developmental and political issues as well as the 
security and stability issues. During my visit to Mali in June, 
President Toure informed U.S. Ambassador Milovanovic and me that he is 
committed to hosting a Bamako summit that would address achieving a 
regional agreement on the way forward against AQIM. We consider this 
summit critical to the region's success. It would also provide a 
framework in which the USG and our European partners could provide 
assistance that would support regional development and security.
    General Ward, Commander of AFRICOM, is also scheduled to travel to 
both Mali and Algeria in the next few weeks to consult on the progress 
in planning for the Bamako summit and other collaborative initiatives 
for the region.
    DOD military cooperation in the Sahel is conducted primarily 
through the authorities and resources of OEF-TS. OEF-TS is the DOD 
contribution to the larger counterterrorism effort of TSCTP, which I 
mentioned earlier and of which you've heard from my colleagues here 
today. Executed under the operational control of USAFRICOM, led by 
General Ward, the objectives of OEF-TS flow from the TSCTP strategy, 
using military cooperation programs and activities to build military 
capacity in our African partners to reduce the availability of the 
Sahel region as a safe haven and operational support, resupply, and 
sustainment area for AQIM.
    DOD military cooperation programs and activities span a broad 
spectrum from relatively simple outreach and humanitarian-related 
efforts, through academic courses and education programs, tactical and 
operation-level training and exercises, up to sharing of military 
information and providing equipment to enable partner nation military 
operations.
    DOD, through USAFRICOM training and liaison missions, has deployed 
to several countries in the region to support achievement of OEF-TS 
mission objectives. In this region, DOD has deployed teams including: 
the Joint Planning Advisory Teams (or ``JPAT'') that work closely with 
embassies to schedule, support, and synchronize the multiple training 
events occurring across this region; Civil-Military Support Elements 
(or ``CMSE'') that coordinate DOD humanitarian and other civic action 
projects; and Military Information Support Teams (or ``MIST'' teams), 
that work closely with Embassy Public Affairs officers to positively 
counter the messages of violent extremism and proactively project U.S. 
efforts, particularly those by the U.S. military.
    When we look, at AQIM, Algeria is the focus and primary target of 
their attacks. Our military relationship with Algeria is designed to 
support our mutual security interests. Algeria is working to bring the 
region together around a common solution acceptable to the countries 
that are directly involved. Algeria believes--as we do--that a solution 
is only possible when the response is coordinated and implemented 
together. As I mentioned earlier, Algeria organized a meeting of CHODs 
in August in Tamarraset to coordinate a military approach. This effort, 
however, is dependent upon an endorsement by the political leadership 
in the region. This endorsement could be possible through the long-
awaited Bamako summit that I mentioned earlier. Algerian officials told 
me that they remain committed to a regional approach.
    Mali is a critical player. It is a recipient of DOD military 
cooperation efforts in the Sahel, receiving over $10M in equipment in 
FY09 through security assistance resources as well as the section 1206 
authority. In addition, DOD spent over $5M in FY09 through OEF-TS in 
Mali conducting over 10 training events with the Malian military 
throughout the year--an extremely high tempo for operations and 
tactical training. I visited Mali in June of this year, meeting with 
President Toure and General Pougiougou, the chief of the Malian 
military. They expressed their appreciation for our assistance in 
helping them address the challenges posed by AQIM. President Toure 
stated his commitment to a regional summit, however, we would like to 
see Mali take a more proactive stand in combating AQIM.
    With respect to Mauritania, while all DOD military cooperation 
activities with Mauritania were suspended in August 2008 following the 
military coup, DOD is restarting military cooperation following 
Mauritania's return to a constitutional system following democratic 
elections in July 2009. DOD outreach activities with Mauritania have 
already begun, with exercises and training to start after January 2010, 
and possible equipment enhancements starting near the end of FY10.
    Unfortunately our cooperation with Niger is limited because of 
President Tandja's decision to suspend the constitution. Past U.S. 
military cooperation with the Nigerien military was good and was 
similar in scope and effort to current activities with Mali. However, 
DOD military cooperation with Niger was terminated in compliance with 
growing U.S. policy restrictions against Niger due to President 
Tandja's actions. We hope that the Nigerien Government will return to a 
democratic and constitutional framework, so that DOD can again work 
with the Nigerien military to address the challenges posed by AQIM in 
the Sahel.
    Your invitation letter asked me to talk about our interagency 
coordination related to our Sahel programs. In my opinion, TSCTP is an 
excellent example of how interagency coordination should work. While 
our Departments' and Agencies' programs are typically separately funded 
and implemented, in the case of TSCTP, there is close collaboration 
between the State Department, USAID, and DOD, including in annual 
planning, leveraging appropriate resources from multiple and disparate 
programs, monthly interagency teleconferences between Washington 
organizations and the field (including our Embassies and USAFRICOM, and 
synchronizing scheduling and implementation of activities on the ground 
in our partner nations.
    I assess that the greatest challenge to our regional partner's 
security forces is due to the vast distances and harsh environment of 
the Sahara. This vast, sparsely populated region, has a long tradition 
of trade and routes that carry whatever goods are traded. In addition, 
there are preexisting tensions and wide porous borders that also 
contribute to the region's challenges. It is the geographic and 
environmental realities of this region that is used by AQIM to find 
refuge in the vast, undergoverned spaces. Our partner nations have a 
daunting challenge from a security perspective in maintaining 
awareness, monitoring their borders and providing the necessary 
security functions traditional of a government to its population.
    I'd like to again say thank you for this opportunity to discuss 
DOD's role as part of the larger U.S. Government team addressing the 
challenges posed by AQIM in the Sahel and Maghreb region in Africa. My 
colleagues and I look forward to answering your questions.

    Senator Feingold. Thank you, Ms. Huddleston. And thank all 
of you.
    Let's start with the rounds--7-minute rounds--in the hope 
that each of us could get a round in before the votes start.
    Ambassador Benjamin, as you cite in your testimony, there's 
been a long concern about AQIM's ability to establish itself in 
Europe and carry out attacks there. You've said that, ``We view 
the near-time likelihood of such an expansion of those 
operations as less likely than before.'' But, as you know, the 
AP recently reported the arrest, in Italy and elsewhere in 
Europe, of 17 Algerians suspected of raising money to finance 
terrorism. Do we believe that AQIM is still trying to gain a 
foothold and carry out attacks in Europe? And to what extent 
does this continue to be a pressing concern for our European 
partners?
    Ambassador Benjamin. Senator Feingold, it certainly remains 
a high concern for our European partners. I think that, at the 
moment, it would be safe to characterize AQIM activity outside 
of Africa, and particularly in Europe, as being aspirational 
and focused, at the moment, more on fundraising and logistics; 
and they have not yet acquired an operational capability on the 
continent.
    That said, it remains a high priority. But judging by what 
we know about the goings-on within the group and also the very 
strong capacities of Algerian law enforcement and also French 
intelligence, we believe that the group's ability to project 
itself has been somewhat degraded and that, as I said in my 
testimony, it's probably less likely than before.
    That said, we are always confronted with the same problem 
in terrorism, and that is, it's an arena in which small numbers 
can make a big difference and you can't ensure that you can 
detect every small number, every operative, every small cell. I 
think we are fairly confident in our assessment, but, 
nonetheless, we can't be absolutely certain that nothing would 
happen.
    Senator Feingold. Thank you. Your testimony states that, 
``Our capacity-building assistance has enabled Niger and Chad 
to take on antiregime rebels successfully.'' Is this a 
reference to AQIM or to other opponents of the regimes?
    Ambassador Benjamin. It's primarily a reference to other 
rebel groups, Senator.
    Senator Feingold. And isn't that outside the scope of the 
Trans-Sahara Counterterrorism Partnership? Isn't there some 
risk that, if we're providing general support to these abusive 
governments, that we could fuel anti-American attitudes and 
undermine our overarching counterterrorism goals?
    Ambassador Benjamin. It is certainly true that the 
fundamental target of this assistance is al-Qaeda in the 
Maghreb, but, as a general rule, this is about capacity-
building, and capacity-building often allows governments to 
strengthen themselves and extend their controls over larger 
areas of territory.
    Perhaps Secretary Carson would like to add to that.
    Ambassador Carson. Mr. Chairman, let me just say that we 
are constantly monitoring how our assistance is used by 
different governments, not only in the Sahel, but across 
Africa. The last thing that we want to do is to provide bad 
governments with the capacity to inflict harm on their people, 
to carry out human rights violations. So, we do monitor these 
assistance programs very, very carefully.
    And in the case of a country like Chad--Chad has been 
subject to invasions from rebels coming across the border from 
Sudan, and, in some of those instances, it is believed that 
those rebels have received assistance from foreign governments. 
In those instances, we think that it is important to help 
governments strengthen their capacity to defend against rebel 
groups and rebel incursions.
    Now, our assistances may not, in fact, exclusively be from 
or out of the Trans-Sahara Counterterrorism Partnership 
Program, but may come from other assistance that we provide. 
One of the other points we're also making when we extend 
assistance to the government of a country like Chad is that it 
is important that their militaries operate under civilian 
control, that they follow human rights norms that are 
universal, and that they not act against their citizens.
    Senator Feingold. Well, obviously it's terribly important 
that we get this right. The nature of these regimes is not 
something to be very comfortable with vis-a-vis this kind of 
activity. So, whether it's part of the Trans-Sahel or some 
other source of funding, this is something that I'm going to 
want to monitor closely and be as fully informed as possible 
with regard to non-AQIM uses of this capacity that we're help 
building.
    Ambassador Benjamin, AQIM's activity cuts across several 
countries and involves both the Bureau of African Affairs and 
the Bureau of Near Eastern Affairs at the State Department. 
What mechanisms exist to encourage information-sharing and 
collaboration among the relevant embassies and these two 
bureaus, and what role does your office play in ensuring that 
State has a coordinated approach to dealing with AQIM?
    Ambassador Benjamin. Senator, thank you for that question.
    One of the virtues of the TSCTP is that it has led us to 
create, I think, a more robust coordinating mechanism than we 
have for many other areas of the world. There is a standing 
interagency working group for the Trans-Sahara, which meets 
regularly on a monthly basis in Washington, with action 
officers from State, OSD, and USAID, to discuss issues. There 
are an enormous number of daily contacts. We also have a 
regular monthly videoconference with AFRICOM. TSCTP has annual 
conferences that include DCMs or ambassadors from all the 
embassies in the region, as well as representatives from across 
the interagency. We also host two regional strategic initiative 
meetings per year that include the ambassadors and senior 
interagency representatives. It was the first RSI that I had 
the pleasure of addressing.
    So, I think that this is one very well-coordinated process. 
There's always room for improvement, but I think that we're 
pleased with the way it has worked and that it's a model for 
cooperation in other geographical areas.
    Senator Feingold. Thank you, Mr. Benjamin.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Carson--and this may apply to someone else as 
well; feel free to chime in--we had a hearing a few weeks ago 
on narcotrafficking in West Africa, and with AQIM in that area, 
are they being financed, in part or in whole by 
narcotrafficking?
    Ambassador Carson. The AQIM groups that are operating in 
the Sahel are engaged in a lot of illicit activities, including 
smuggling across the border, and probably to include some 
narcotrafficking, as well.
    We don't have specifics on precisely how they get all of 
their money, but we do know that they engage in smuggling 
goods, smuggling and trafficking people, probably moving 
illegal drugs, and, most recently, engaging in high-profile 
kidnappings for ransom of Europeans.
    Senator Isakson. Thank you.
    Mr. Daniel, we had a death of a British citizen, I believe, 
in Mali or Mauritania, an American citizen there, as well. What 
is the level of cooperation with those governments in bringing 
those who perpetrated those crimes to justice?
    Ambassador Benjamin. As a general rule, Senator, the level 
of cooperation is very high. In fact, one of my colleagues from 
the British Embassy is right behind me. We have met multiple 
times on a range of counterterrorism issues, including this 
one. I was in Ottawa last month to discuss this and other 
relevant issues with Canadian officials. In general, we are in 
touch on a very close and regular basis to do what we can both 
to prevent such kidnappings and hostage-takings and murders, 
and to deal with them when they happen, but also to track down 
the offenders and bring them to justice. And there's close 
cooperation with regional partners, as well.
    Senator Isakson. Was either of those crimes tied to AQIM?
    Ambassador Benjamin. I believe they both were.
    Senator Isakson. They both were.
    Ambassador Benjamin. Yes. The American NGO worker and the 
British hostage, Dyer, were both, I believe, victims of AQIM.
    Senator Isakson. Well, I know we, unfortunately, had a 
Georgian, who was a Peace Corps volunteer that was murdered in 
Benin earlier this year, and I want to say again, how much I 
appreciate the Government of Benin, which is in the region, 
it's not a part of the partnership, I don't think, but it's 
just south of there--they've done a wonderful job in helping to 
bring justice to the perpetrator of that crime.
    Mr. Gast, you made an interesting comment in your remarks, 
and I wrote it down. You talked about ``strategies, given the 
realities of the day.'' And then you made a reference to the 
four areas you were focusing on, which were youth empowerment, 
education, government, and then young men.
    I have found in my travels to Africa that some of the 
efforts we're working on relate to reducing the vulnerability 
of young African men to be exploited or misdirected, for lack 
of a better term, because it is a serious problem in many 
African countries. Are you developing any programs that deal 
directly with young African men?
    Mr. Gast. Very good question, and it's something that we've 
been struggling with for more than a year, is looking at the 
youth bulge and looking at many of the states that are in 
conflict now throughout the continent, or just emerging from 
conflict. There is a very large youth population and a very 
large young male population, and we're seeing violence 
perpetrated by young men in southern Sudan, and we're coming up 
with country-specific or region-specific approaches in trying 
to deal with those issues.
    We in AID also have recognized that this is a big issue, 
and not just in Africa, but also in Asia, and we're coming up 
with an agency strategy and approach to addressing the issues 
related to young men--unemployed young men; idle young men.
    Senator Isakson. Well, I--my observation is--and I have not 
been to any of the countries--well, I have been to Algeria and 
Tunisia, but I haven't been to any of the ones directly 
involved here--but, in my travels in South and Central Africa 
and in Sudan and Ethiopia, it seems like the single largest 
vulnerability we have is to get the energies and direction of 
these young men out of nefarious activity and into some type of 
productive economic activity.
    For many women, this has been done in terms of the Village 
Savings and Loan programs and things of that nature.
    I appreciate your answer on that, because I think it is a 
critically important thing to do.
    Ms. Huddleston, you mentioned AFRICOM and some visibility 
or support in the counterterrorism partnership. Is some of that 
coming out of our deployments in Djibouti?
    Ambassador Huddleston. Thank you, Senator Isakson.
    The most of the support that we do under the Operation 
Enduring Freedom-Trans-Sahara is from, what we call, SOCAF, our 
Special Forces of the Africa Command. And so, although Djibouti 
supports, it's mainly out of Stuttgart and component commands 
from the Special Forces.
    And I wondered if I could just go back one moment to the 
chairman's question regarding our accountability of our 
training of forces in the region.
    Senator Isakson. Please.
    Ambassador Huddleston. Senator Feingold, I'd just like to 
point out that I think we've been particularly good on this 
one. In Mali, of course, they have remained democratic and the 
forces that we've provided--JSETs to, as well as train and 
equip, have been the forces that are focused on the AQIM; in 
other words, the region to Timbuktu and the Gao region where 
those--where the AQIM is active.
    In the case of Chad, we actually redirected a train-and-
equip because we were dissatisfied with the chain of command. 
That has now been resolved.
    In the case of Niger, of course, we have suspended our 
assistance. And in the case of Mauritania, we suspended our 
assistance; and now we'll resume. But, again, that training and 
those--that assistance will be directed at military capacity 
that is directed at counterterrorism activities.
    So, just----
    Senator Feingold. Thank you.
    Ambassador Huddleston [continuing]. To clarify a bit.
    Senator Isakson. That's all, Mr. Chairman.
    Senator Feingold. I'm going to continue until the vote 
starts, and we'll leave the record open for this panel so we 
can ask additional questions if we like.
    But, let me go to Assistant Secretary Carson. As you know, 
the GAO study released in July 2008 found that the Trans-Sahara 
Counterterrorism Partnership suffered from a lack of 
comprehensive integrated strategy. Given that the Africa Bureau 
is the program lead, I'd like to ask you now: Is there now a 
comprehensive integrated strategy that has been agreed to be 
the interagency?
    Ambassador Carson. We are still working off of the previous 
documents with respect to strategy, but the strategy that we're 
using, Mr. Chairman, focuses on several elements. One is to 
deter violent extremism and to put programs in place that will 
help prevent violent extremism from taking root in various 
countries. The second part of the strategy is to build security 
capacity within the various African militaries in the region. 
And the third is to strengthen the coalition and the regional 
cooperation among states. These remain a core part of our 
activity: deterring extremism, building security capacity, and 
strengthening regional focus.
    We, here in Washington, work extraordinarily closely 
together, as Ambassador Dan Benjamin has pointed out in his 
testimony. We are in frequent contact, coordinating our efforts 
in the field and our strategic efforts back here in Washington.
    We----
    Senator Feingold. A little more specifically, what 
mechanisms exist for the interagency to review and assess the 
appropriateness and progress of specific activities in light of 
this strategy?
    Ambassador Carson. Well, we do, in fact, get together, 
under the guidance of the NSC, and we also meet regularly 
within the State Department, under various mechanisms that have 
been outlined for myself and for Ambassador Huddleston and for 
Special Coordinator Dan Benjamin, to review where we are, 
review the progress that we're making in the field, and review 
what we need to do to modify and adjust our core elements in 
the strategy.
    Senator Feingold. Thank you, sir.
    Deputy Assistant Secretary Huddleston, you have a unique 
vantage point, given your experience as previous U.S. 
Ambassador to Mali, and we were there together, as you, I'm 
sure, remember. As you know, the Malian military has engaged 
this year in several military confrontations with AQIM. Have 
these been successful engagements? And, more broadly, what are 
the greatest needs of the Malian military and other militaries 
in the Sahel as they seek to combat AQIM and carry out 
effective counterterrorism?
    Ambassador Huddleston. Thank you, Mr. Chairman. And I 
remember your visit very well; in fact, you said it was one of 
the better USAID projects, if not the best----
    Senator Feingold. It was excellent.
    Ambassador Huddleston [continuing]. That you had ever seen. 
[Laughter.]
    Thank you.
    Mali has been a good partner, but Mali lacks capacity. And 
so, it is sometimes also hesitant in the way in which it 
carries out its operations.
    Right now, in order to address that issue, we are providing 
$3.5 million through the Department of State to help them 
improve their logistics capacity, as well as their training. 
And this is continuing to be an enormous problem for Mali, 
because the area up there, as you know so well, Senator, above 
the Niger River is so vast. I think that area itself is about 
the size of Texas. And there have been two Tuareg rebellions in 
that area. And as a result, in many ways Mali has lost the 
capacity to govern successfully in that area.
    And so, long-term success depends upon its ability both to 
reestablish its security presence, something that we are trying 
to help them do, along with the State Department, as well as to 
have the support of the people, both the Tuaregs and the 
Berabiche, in the area.
    I think you saw this one operation in which a number of 
Malian military were killed. I think that showed, in itself, 
that they were--there was a resolve on the Malian part to try 
to face this threat. But, it also showed that sometimes they're 
not--they don't have the capacity to do it as well as they 
should.
    And that's why this Algerian/Malian initiative, at which 
they held in Tamanrasset with the chiefs of staff of the 
various defense organizations of Niger, Mauritania, Mali, and 
Algeria, is so important. Because the only really effective way 
to address this challenge is for the region to address it 
together.
    Senator Feingold. Thank you.
    Mr. Gast, when USAID carries out assessments to identify 
communities most at risk to violent extremist organizations or 
ideology, what are the characteristics that you're really 
looking for? And how specifically has USAID adapted its 
development programs to try to target these kinds of risk 
factors?
    Mr. Gast. Yes, thank you, Senator Feingold.
    Recently, within the last year, we had a final version of 
our Drivers of Extremism paper, as well as our programming 
options, which we peer tested. And, from that, we have used--we 
have come up with an analytical framework that we're using in 
the countries. And we've used this analytical framework in all 
four of the primary participating countries. And we're looking 
at areas that are most vulnerable to violent extremism. And so, 
that would be, for instance, areas where there's 
marginalization; it could be ethnic conflict, it could be high 
unemployment. And so, it depends on the region.
    And, for example, in Mauritania, we have determined--and by 
the way, these assessments are done on an interagency basis, so 
it's not just AID; State Department officers, DOD officers 
participate in the assessments, as well--in Mauritania, we've 
determined that the youth who've come into the city are most 
vulnerable to messages of violent extremism. So, the program is 
urban-targeted. In Mali, for instances, it is in the north, 
and--as well as Niger, also in the north.
    Senator Feingold. Thank you.
    Senator Isakson.
    Senator Isakson. Just one question, and Secretary Carson, 
I'll ask you, but somebody else might answer it.
    The eastern border of Chad borders western Sudan, which is 
where Darfur is, and in the displacement and the tremendous 
refugee problem that we have there, a lot of those people 
were--in Darfur--were displaced by Chadian rebels. Is there any 
evidence, that you know of that AQIM-supported, in whole or in 
part?
    Ambassador Carson. Senator, no, we have no indication that 
AQIM has been operating in that part of Africa along the Chad 
border with Sudan. No indication whatsoever.
    Senator Isakson. Thank you.
    Senator Feingold. One more quick question for Deputy 
Assistant Secretary Huddleston.
    Assistant Secretary Carson's testimony states that, 
``Chiefs of mission must concur with all proposed activities,'' 
related to TSCTP. Can you assure the committee of the 
Department of Defense's unqualified support for this principle?
    Ambassador Huddleston. Yes, Senator, I can, and I would 
cite the fact that General Ward has been very conscientious in 
always going to the ambassadors and making sure that the 
ambassadors in each of the countries are comfortable with and 
support whatever activity we are engaged in.
    Senator Feingold. I thank you, and I thank all the 
panelists. We will recess at this point, because the votes are 
about to start. I'm hoping we'll be able to come back and begin 
with the second panel in roughly 45 minutes.
    I thank you.
    [Recess.]
    Senator Feingold. Call the hearing back to order.
    Thank you for your patience. And it was almost exactly 45 
minutes, so I thank the second panel for waiting.
    And, at this point, I would like to ask Ms. Lianne Kennedy-
Boudali to give her testimony. And, of course, we'd be more 
than happy to put your full statement in the record.

STATEMENT OF LIANNE KENNEDY-BOUDALI, SENIOR PROJECT ASSOCIATE, 
                RAND CORPORATION, ARLINGTON, VA

    Ms. Kennedy-Boudali. Thank you, Chairman Feingold.
    It's my honor to be here. I have been asked to provide an 
assessment of threats to the Sahel from al-Qaeda in the Lands 
of the Islamic Maghreb, or AQIM, and other extremists groups.
    Insecurity in the Sahel is not a new condition, and 
although recent terrorist incidents have drawn greater 
attention to the region, terrorism is not the primary problem. 
Weak states, ineffective governance, civil conflict, smuggling 
of goods and people, drug and weapons trafficking, and 
criminality all contribute to insecurity in the region.
    The problems of poor education, a lack of economic 
opportunity, and poor social mobility create an environment in 
which AQIM's recruitment messages find an audience. AQIM has 
the capacity to threaten U.S. citizens and U.S. interests in 
the region; however, the group is not in a position to 
destabilize any of the states in the Sahel, and it is not 
likely to form the nucleus of a Taliban-like insurgency.
    I would like to briefly discuss AQIM's current activities 
in the Sahel.
    In September 2006, the Salafist Group for Call and Combat, 
the GSPC, declared its allegiance to Osama bin Laden, and 
became an al-Qaeda affiliate in January 2007 by changing its 
name to ``the al-Qaeda Organization in the Lands of the Islamic 
Maghreb.''
    AQIM's goal--the overthrow of the Algerian state--has not 
changed since the merger, although the group has increased its 
rhetorical attacks on the West, and it has greatly expanded its 
outreach to jihadists in the region. AQIM has incorporated 
increasingly sophisticated IED technology into its attacks 
against Algerian security services, and it began conducting 
suicide attacks in 2007. Suicide attacks make up a small 
percentage of AQIM's attacks, however, and the deadliness of 
these attacks has been decreasing over time.
    AQIM's association with al-Qaeda may have provided new 
sources of external donations, but the group still appears to 
get most of its funds from its own criminal activities, 
including kidnapping and smuggling in Algeria and the Sahel, 
and from petty crime in Europe.
    AQIM has capitalized on insecurity in the Sahel to maintain 
safe havens in Mali and Mauritania, but its ability to operate 
beyond Algeria depends on maintaining cooperative relationships 
with the Tuareg and Berabiche tribes in the region.
    AQIM's alliance with al-Qaeda allowed it to attract 
fighters from the Sahel, but, despite this, the group does not 
appear to be gaining strength. The recent expansion of activity 
into Mauritania and Mali is taking place in part because AQIM 
has been increasingly constrained in Algeria, and because it 
has been unable to organize operational cells in Morocco, 
Libya, or Tunisia.
    AQIM's strict interpretation of Islam holds little appeal 
in the Sahel, and its recent actions in Mali--the execution of 
a British hostage in May and the assassination of a Malian 
military officer in June--may have put its safe haven in 
jeopardy.
    The group also suffers from internal personality conflicts 
and has lost many of its experienced fighters to the Algerian 
Government's amnesty programs and its aggressive 
counterterrorist actions.
    Despite fears to the contrary, AQIM does not appear to have 
received a large influx of foreign fighters from Iraq, which is 
one of the few variables that could have significantly 
increased the group's capability for violence.
    AQIM is likely to continue kidnapping foreigners, and it 
may increasingly seek to target Western interests in the 
region. As such, the group poses an ongoing threat to U.S. 
citizens and interests in the region. This threat is best 
countered by a multipronged U.S. policy response that includes 
programs designed to support development, governance, and 
security.
    States in the region need assistance in creating the 
conditions for social development, including better education, 
more economic opportunity, more transparency in governance, 
stronger rule of law, and support for countering both criminal 
and terrorist violence.
    Additionally, longstanding civil conflicts, notably the 
ongoing problems between the states in the region and the 
Tuareg minorities, require resolution before progress can be 
made in improving security and development.
    The best option for reducing terrorism and improving 
security in the Sahel is to focus our efforts on improving 
human security in all forms--physical, economic, environmental, 
and so on--by supporting the Sahel states' ability to deal with 
these problems themselves.
    Thank you for the opportunity to speak with you.
    [The prepared statement of Ms. Kennedy-Boudali follows:]

Prepared Statement of Lianne Kennedy-Boudali, Senior Project Associate, 
                    RAND Corporation, Arlington, VA

    Chairman and distinguished members, thank you for the opportunity 
to testify before the Senate Committee on Foreign Relations' 
Subcommittee on African Affairs session on ``Examining U.S. 
Counterterrorism Priorities and Strategy across Africa's Sahel 
Region.'' This testimony will focus on the nature of the terrorist 
threat posed by al-Qaeda in the Islamic Maghreb (AQIM).
                    regional instability in context
    As this committee is well aware, the Sahel is a sparsely populated 
area that is extremely difficult to govern. National borders are remote 
and poorly monitored, and significant distances separate the developed 
areas in the south from the northern areas where terrorist activity 
largely takes place, making it difficult for security services to 
respond rapidly to terrorist activity. The states themselves are weak 
or poorly institutionalized, and effective governance is hindered by 
lack of transparency and accountability. Corruption and a lack of 
professionalization negatively affect the performance of local security 
services, while ongoing civil conflict with minority ethnic groups 
creates distrust between the governments and their citizens.
    Insecurity in the Sahel is not a new condition, and although recent 
terrorist incidents have drawn greater attention to the region, 
terrorism is not the primary problem. Corruption, civil conflict, 
smuggling of goods and people, drug and weapons trafficking, and 
terrorism all contribute to insecurity in the region. Although the 
indigenous practice of Islam in the Sahel is tolerant and syncretic, 
less tolerant external religious influences are increasingly making 
inroads in the region as foreign-sponsored religious organizations 
introduce Salafi, Wahabi, and Tablighi teachings. Given that many 
people cannot read at all, let alone read the Qur'an in Arabic, Muslims 
in the Sahel are vulnerable to the influence of extremist clerics, 
particularly those who have external support and are thus able to 
attract followers through charitable spending and provision of Qur'anic 
education, Poverty, environmental degradation, poor access to primary 
education, and a lack of economic, social, and political progress 
create conditions for radicalization and extremism, and AQIM's calls 
for Islamic governance and anti-Western violence have found traction 
with certain audiences in North Africa and the Sahel. That said, the 
majority of Muslims in the region appear to reject the extremist 
messages put forth by violent groups such as AQIM, and despite the 
apparent increase in violence in the region, terrorist groups do not 
pose a strategic threat to governments in the region. In sum, AQIM has 
the capacity to threaten U.S. citizens and U.S. interests in the 
region, however, the group is not in a position to destabilize any of 
the states in the Sahel, and it lacks the resources and popular support 
that would be needed to form a broad, Taliban-like insurgency.
                                  aqim
    AQIM emerged in January 2007 when the Salafist Group for Call and 
Combat (GPSC), having declared its allegiance to Osama bin Laden in 
September 2006, changed its name to the ``Organization of al-Qaeda in 
the Lands of the Islamic Maghreb.'' Prior to the merger, the GSPC was 
considered a nationalist jihadist organization focused on challenging 
the Algerian state, although it had longstanding ties to al-Qaeda and 
the wider international jihadist movement.\1\ Since the merger, AQIM 
has increasingly mirrored al-Qaeda in its rhetoric and its actions, and 
this has led to speculation that AQIM might become a much more 
dangerous group, capable of threatening U.S. interests and conducting 
attacks in Europe. Although its alliance with al-Qaeda has given AQIM 
greater legitimacy among jihadists, provided increased access to media 
outlets, and possibly introduced the group to new sources of private 
funding and other resources, the group itself is under enormous stress, 
and its ability to operate in Algeria appears increasingly constrained. 
This has forced AQIM to shift its focus toward the Sahel, particularly 
Mauritania, in search of new recruits and easier targets. The expansion 
of operations in the Sahel should not be taken as an indication of 
greater strength, however; the group may have become more violent, but 
it is not necessarily more dangerous, as the following discussion will 
show.
---------------------------------------------------------------------------
    \1\ Interview with Emir Abu Ibrahim Mustafa, Media Committee of the 
Salafi Group for Call and Combat, December 18, 2003; Muhammad Muqaddam, 
``Nabil Sahraoui Confirms Relationship with al-Qaeda and Stresses 
Continuation of Struggle Against Algerian Authorities,'' al-Hayah, 
January 9, 2004.
---------------------------------------------------------------------------
The Effects of the al-Qaeda Affiliation
    AQIM's overarching goal--the overthrow of the Algerian state--has 
not changed since the merger with al-Qaeda, despite an increase in 
rhetorical attacks on the West and the governments of neighboring 
countries.\2\ AQIM has sought to legitimize its violence by associating 
itself with al-Qaeda's vision of global jihad, and its recruitment has 
increasingly drawn on themes linked to al-Qaeda, particularly the 
conflicts in Iraq and Afghanistan.\3\ AQIM has attempted to radicalize 
potential recruits in neighboring countries by pointing out events that 
appear to have negative consequences for Muslims or by inserting itself 
into local affairs.\4\ For example, AQIM commented on apparent police 
brutality in Morocco in June 2008 and later warned Mauritanians about 
the futility of participating in national elections in May 2009.\5\ 
Although AQIM appears to have succeeded in recruiting some fighters 
from the Sahel countries, its overall success in attracting new 
recruits appears marginal, as the group has shown few signs of 
increased strength or capability as a result of its various 
radicalization efforts. Furthermore, AQIM does not appear to have 
received a large influx of ``foreign fighters'' from Iraq, which is one 
of the few variables that could have significantly increased the 
group's capacity for violence.
---------------------------------------------------------------------------
    \2\ Abu Obeida Yusuf al-`Annabi, ``Congratulations to the People of 
Tawhid in the Occasion of Eid,'' Al-Fajr Media, October 6, 2008, and 
Abu Musab `Abd al-Wadud, ``A Message to Our Ummah in the Islamic 
Maghreb,'' Al-Fajr Media, September 21, 2008.
    \3\ ``The War of Bombs and Mines,'' video released November 3, 
2008. Summary available from SITE Intelligence Group, November 4, 2008; 
Information Committee of al-Qaeda in the Islamic Maghreb, ``Press or 
Nonsense?! In Response to Some of the Lies Published in the Algerian 
Press,'' al-Fajr Media Center, December 25, 2008; Abu Mus'ab `Abd al-
Wadud, ``A Message to the Algerian Muslim People,'' January 2006.
    \4\ Abu Musab `Abd al-Wadud, ``A Message to Our Ummah in the 
Islamic Maghreb,'' al-Fajr Media Center, September 21, 2008; Abu Musab 
`Abd-al-Wadud, ``Gaza: Between the Hammer of Jews and Crusaders and the 
Anvil of Apostates,'' al-Fajr Media Center, January 15, 2009.
    \5\ `Abd al-Rahman al-Shanqiti, ``My People, Follow Me, for I Will 
Lead You to the Path of Right,'' May 30, 2009; Abu Musab `Abd al-Wadud, 
``Statement in Relation to Moroccan Sister and Baby Who Were Beaten 
Near the Prison,'' June 4, 2008.
---------------------------------------------------------------------------
    AQIM's headquarters remains in northeast Algeria, but AQIM 
maintains several operational units (called katibah--plural kata'ib--in 
Arabic) in the Sahel.\6\ These units are nominally under the command of 
AQIM's national leadership, led by Emir Abdelmalek Droukdal (aka Abu 
Mus'ab Abd-al-Wadud), but some units in the Sahel control independent 
resources and are selfsustaining.\7\ AQIM appears to get most of its 
funds from its own criminal activities, including kidnapping and 
smuggling in Algeria and the Sahel, and from petty crime in Europe.\8\
---------------------------------------------------------------------------
    \6\ AQIM is organized into four operational zones: Center, East, 
West, and South (alternately Sahara), each with its own military 
commander. The Southern zone contains the kata'ib that operate in the 
Sahel.
    \7\ Mokhtar bel Mokhtar, who was also active in the Sahara under 
the GPSC, has longstanding ties to Touareg and Berabiche tribes in Mali 
and Mauritania. It is bel Mokhtar who is believed to run AQIM's Saharan 
training camps.
    \8\ ``The Sinews of the `Holy War ': Racketeering, Holdups, and 
Kidnappings,'' Le Monde, December 11, 2008; ``Bejaia Court: The 
Terrorists' Treasurer Given Life Sentence,'' Liberte, May 2, 2007; 
``Sahara Zone Kidnappings,'' Jane's Terrorism and Security Monitor, 
March 3, 2009; International Crisis Group, ``Islamism, Violence and 
Reform in Algeria: Turning the Page,'' ICG Middle East Report No. 29, 
July 30, 2004.
---------------------------------------------------------------------------
    The vast majority of AQIM's attacks are in the form of ambushes, 
roadblocks, kidnapping, extortion, and bombings. AQIM has occasionally 
attacked Algeria's energy sector, targeting natural gas pipelines with 
explosive devices or attacking foreign personnel involved with gas 
production. Following its merger with al-Qaeda, AQIM incorporated 
increasingly sophisticated IED technology into its attacks against 
Algerian security services, and it adopted suicide attacks in 2007.\9\ 
Suicide attacks make up a small percentage of AQIM's attacks, however, 
and the deadliness of these attacks has decreased over time, as has 
their frequency. The group suffers from internal personal conflicts and 
has lost many of its experienced fighters to the Algerian Government's 
amnesty programs and aggressive counterterrorist actions, which may 
have resulted in the loss of experienced trainers, planners, and bomb-
makers.\10\
---------------------------------------------------------------------------
    \9\ Andrew Black, ``AQIM's Expanding Internationalist Agenda,'' CTC 
Sentinel, Vol. 1 Issue 5, April 2008; Hanna Rogan, ``Violent Trends in 
Algeria Since 9/11,'' CTC Sentinel, Vol. 1 Issue 12, November 2008.
    \10\ Jane's Terrorism and Insurgency Center, ``JTIC Briefing: 
Algerian Jihadists Continue Attacks Despite Internal Rifts,'' September 
27, 2007.
---------------------------------------------------------------------------
                    aqim's new emphasis on the sahel
    The recent expansion of terrorist activity into Mauritania and Mali 
is taking place in part because Algerian security services have put 
AQIM on the defensive, but also because AQIM has been unable to 
organize operational cells in Morocco, Libya, or Tunisia. In Morocco, 
there is no logical counterpart with whom AQIM might form an effective 
relationship. Moroccan security services arrested thousands of suspects 
after the 2003 suicide attacks in Casablanca, effectively splintering 
the emerging jihadist movement. Jihadist presence is weak in both 
Tunisia and Libya, and as a result, AQIM's outreach in North Africa has 
been limited to attracting a handful of recruits to join its Algerian 
units.\11\ AQIM has had little choice but to turn its focus to the 
Sahel.
---------------------------------------------------------------------------
    \11\ In 2008, al-Qaeda announced that the Libyan Islamic Fighting 
Group (LIFG) had merged with al-Qaeda. LIFG has little (if any) ground 
presence in Libya, as most of its members were either arrested or fled 
the country in the late 1990's. As a result, LIFG is unlikely to 
provide much in the way of support to AQIM.
---------------------------------------------------------------------------
    AQIM, like the GSPC before it, has been able to capitalize on 
insecurity in the Sahel to maintain safe haven, capitalize on smuggling 
routes, and draw recruits from criminal groups and disenfranchised 
populations. AQIM's continued ability to operate outside of Algeria 
depends on maintaining cooperative relations with the Touareg and 
Berabiche tribes in the region. Cooperation between these tribes in the 
Sahel and the Algerian jihadists is based on mutual interest in 
generating revenue and avoiding interference from state security 
services. However, AQIM's actions generated a great deal of attention 
from the international community--particularly following the execution 
of British hostage Edwin Dyer in May 2009--and this increased tensions 
between the Algerian terrorists and the Touareg. Most Touareg do not 
share AQIM's goal of establishing an Islamic state, and even militant 
Touareg groups are not seeking to overthrow the governments of Mali and 
Niger. If AQIM's presence becomes too disruptive, the Touareg are 
probably capable of eliminating AQIM's safe havens in Mali and Niger--
either alone or with the help of their governments' security services.
    Despite these tensions, the number of fighters recruited in Mali, 
Niger, and Mauritania--although not large--is believed to be 
growing.\12\ Some of these fighters are operating in the Sahel, while 
others have been incorporated into AQIM's Algerian-based units. In 
2008, AQIM claimed responsibility for two attacks in Mauritania, 
including an attack on a military patrol that resulted in the beheading 
of 12 Mauritanian soldiers near Zouerate and an attack on the Israeli 
Embassy in Nouakchott.\13\ In 2009, AQIM claimed responsibility for the 
murder of an American working in Mauritania and for a suicide attack 
targeting the French Embassy in Nouakchott (during which only the 
bomber was killed).\14\ AQIM claimed the suicide attack after a delay 
of 10 days, suggesting that AQIM's central leadership may not have 
anticipated the attack, and it appears that AQIM's Mauritanian cells 
remain weak.
---------------------------------------------------------------------------
    \12\ Hamid Yas, ``Police Investigation Reveals that Mauritanians, 
Nigerians, and Libyans are Members of Al-Qaidah in Algeria,'' EI-
Khabar, May 22, 2007.
    \13\ Media Committee of al-Qa'ida in the Islamic Maghreb, 
``Statement on New Victories of the Mujahidin in Algeria and 
Mauritania,'' AI-Fajr Media, December 29, 2007.
    \14\ Media Committee of al-Qa'ida in the Islamic Maghreb, ``Claim 
of Responsibility for Killing the American Infidel: `Christopher Langis 
(sic),' in Nouakchott,'' Al-Fajr Media, June 24, 2009 and ``Statement 
Claiming the Operation on the French Embassy in Nouakchott,'' Al-Fajr 
Media, August 18, 2009, respectively.
---------------------------------------------------------------------------
    Until recently, AQIM appears to have had a tacit noninterference 
agreement with the Malian Government: AQIM refrained from attacking 
Malian interests and the government ignored its presence.\15\ However, 
AQIM's execution of Edwin Dyer in May 2009 followed by the June 
assassination of a senior Malian army officer in his home in Timbuktu 
appear to have tipped the balance.\16\ Malian forces engaged AQIM in 
May and again in July of this year, killing dozens of AQIM fighters 
while losing at least five of their own.\17\ AQIM may be at risk of 
losing its safe haven in Mali as a result of its strategic 
miscalculation. In order to permanently deny AQIM sanctuary, however, 
the Malian Government would need the cooperation of the local Touareg 
population. In the near term, AQIM may be able to ride out the Malian 
armed forces' campaign by relocating to Mauritania or Niger.
---------------------------------------------------------------------------
    \15\ In a statement released on July 7, 2009, AQIM articulated its 
understanding of the tacit agreement: ``You know very well that we do 
not have to fight you. . . . We only came your way in the past after 
you captured our brothers and you committed acts of aggression against 
us.'' Media Committee of al-Qa'ida in the Lands of the Islamic Maghreb, 
Al-Fajr Media, July 9, 2009.
    \16\ Jeune Afrique, ``Murders in the Sahel,'' June 9, 2009.
    \17\ BBC News, ``Mali Army `Takes al-Qaeda Base' ''--June 17, 2009, 
online report, last accessed August 23, 2009, at http://news.bbc.co.uk/
2/hi/africa/8104491.stm.
---------------------------------------------------------------------------
    There has been some speculation that AQIM could join forces with 
other militant Muslims living in sub-Saharan Africa, specifically 
extremist groups in Northern Nigeria and the Polisario in Western 
Sahara. Although AQIM may share some ideological common ground with a 
small number of militant Nigerians, there are cultural, linguistic, and 
geographic barriers that inhibit cooperation between them. Conservative 
Islamist elements in Nigeria have been primarily concerned with 
implementing shari'a law in the northern areas of Nigeria. AQIM has 
little to offer them, and they are unlikely to see any benefit in 
aligning with a foreign terrorist group. While a handful of Nigerians 
may join AQIM's combat units or provide logistical support, it is 
unlikely that AQIM will recruit large numbers of Nigerian jihadists. As 
for the Polisario--an armed group seeking an independent state for the 
Sahrawi people in the Western Sahara--while Salafi and Salafi-jihadist 
ideologies may be making inroads within the Polisario camps, the 
Polisario does not share AQIM's goal of establishing an Islamic state, 
and the Polisario itself has denied any association with al-Qaeda.\18\ 
As such, the likelihood of AQIM absorbing or affiliating with the 
Polisario is remote, although it is possible that the groups may 
cooperate on the movement of people or materiel.\19\
---------------------------------------------------------------------------
    \18\ Anneli Botha, ``Terrorism in the Maghreb: The 
Transnationalisation of Domestic Terrorism,'' ISS Monograph Series, No. 
144, June 2008.
    \19\ Abu Mus'ab al-Sun suggests that some cooperation took place 
between the early Algerian jihad movement--specifically the GIA--and 
the Polisario, but he later states that the relationship deteriorated 
over time. See al-Suri, ``A Call to Global Islamic Resistance,'' p. 
781.
---------------------------------------------------------------------------
      the needs of states in the region and u.s. policy responses
    AQIM is likely to seek to expand its activities in the Sahel, 
including the kidnapping of foreigners, and it may increasingly seek to 
target Western interests in the region as a means to maintain its bona 
fides within the larger jihadist movement. As such, the group poses an 
ongoing threat to U.S. citizens and interests in the region. This 
threat is best countered by a multipronged U.S. policy response that 
includes programs designed to support development, governance, and 
security.
    The causes of insecurity in the Sahel need to be understood and 
addressed in a regional context. Although each country in the Sahel 
poses unique opportunities and challenges for engagement, U.S. policy 
toward the region needs to take an integrated approach that 
incorporates both the Sahel and the states in North Africa. Although 
certain kinds of engagements--such as police training and support for 
greater rule of law--that target particular ministries or departments 
are best conducted via bilateral agreements, many of the problems in 
the region are transnational in nature, and are best treated as such. 
It will be of little use to improve education in Mali without a 
comparable effort in Niger, and little help to improve police 
capability in Mauritania but not in Mali.
    Recent studies indicate that emphasizing police and intelligence 
capabilities is particularly useful in countering terrorism, and 
research also suggests that political violence may be reduced through 
measures that improve the quality of life for people in the affected 
areas.\20\ The Sahel states need support in improving governance, 
transparency, accountability, political participation, and rule of law. 
Traditional development assistance should be targeted toward building 
local capacity to improve health, the environment, sustainable 
agriculture, and education, with particular emphasis on improving 
educational access for girls. Security sector training and assistance 
is needed to professionalize local security services--including the 
police and judiciary, the gendarmerie, and the military--and to 
institute legal and judicial frameworks to facilitate criminal 
prosecution of terrorist suspects. Regional military and security 
services also need support in developing efficient intelligence 
structures and appropriate mechanisms for rapid response to terrorist 
incidents.
---------------------------------------------------------------------------
    \20\ Recent related RAND reports include: ``How Terrorist Groups 
End: Lessons for Countering al Qa'ida,'' by Seth G. Jones and Martin C. 
Libicki, MG-741-RC, 2008; ``Social Science for Counterterrorism: 
Putting the Pieces Together,'' edited by Paul K. Davis and Kim Cragin, 
MG-8949-08D, 2009; and ``More Freedom, Less Terror? Liberalization and 
Political Violence in the Arab World'' by Dalia Dassa Kaye et al., MG-
772, 2008.
---------------------------------------------------------------------------
    The United States has wide array of policy mechanisms to combat 
terrorism in the Sahel. AQIM (as well as its predecessor organizations, 
the GPSC and GIA) is designated as a Foreign Terrorist Organization by 
the State Department, and several AQIM members, including Emir Abu 
Mus'ab `Abd al-Wadud, are on the Department of Treasury's list of 
Specially Designated Nationals. Additionally, the FBI's legal attaches 
support initiatives that promote regional counterterrorism cooperation, 
and traditional bilateral military relationships facilitate 
counterterrorism training and operations. One of the main avenues for 
regional engagement on counterterrorism has been the Trans-Sahara 
Counterterrorism Partnership (TSCTP). The goal of the TSCTP is to build 
partner capacity for counterterrorism and facilitate efforts to counter 
extremist thought. Begun in 2005 as the Pan-Sahel Initiative (PSI), 
this interagency program has grown to include nine countries--Morocco, 
Algeria, Mali, Niger, Tunisia, and Mauritania, Senegal, Nigeria, and 
Chad. \21\
---------------------------------------------------------------------------
    \21\ http://www.africom.mil/tsctp.asp, accessed November 8, 2009.
---------------------------------------------------------------------------
    Some critics of the TSCTP have suggested that the program has 
encouraged African governments to exaggerate the nature of terrorist 
threats in their territory in order to receive military assistance that 
might then be used to suppress internal dissent. This may have been the 
case when the PSI was created in 2005, but given that AQIM has moved 
aggressively into the Sahel over the last several years, Mali, 
Mauritania, and Niger have even greater reason to participate. In the 
early years of the program, there was an essential difference of 
opinion between the United States and the African governments over the 
nature of the terrorist threat in Africa. The United States has 
necessarily been primarily concerned with incidents of international 
terrorism, whereas most African officials are preoccupied with 
terrorism that poses a threat to domestic security. In the last year, 
AQIM has demonstrated that it, at least, is both a domestic and 
international threat.
    High-profile programs like TSCTP are an effective way to focus 
human and financial resources on the problem of terrorism in the Sahel, 
but difficulties in implementation and interagency cooperation appear 
to hinder the effectiveness of the program. Furthermore, a visible U.S. 
footprint may not be appropriate in all countries, as particular 
aspects of the TSCTP are politically sensitive. For example, when the 
United States assisted the Algerian Government in expanding its 
physical military infrastructure in the south of the country, local 
press reports immediately suggested that the United States was 
constructing a secret intelligence base in the desert. Suspicion, 
misinformation, or confusion about the nature of U.S. counterterrorist 
programs in the Sahel will undermine our ability to reduce terrorism, 
extremism, and anti-American sentiment. Many people in the Sahel are 
already suspicious of U.S. motives for involvement in local security 
affairs, and on several occasions, AQIM has pointed to TSCTP activities 
and AFRICOM's presence as evidence of American ``occupation'' of Muslim 
lands.\22\ In planning anti- or counter-terrorist policies, the United 
States needs to take into account local sensitivities and ensure that 
the scope and the reasons for our activities are communicated to both 
the host government and the local population.
---------------------------------------------------------------------------
    \22\ Abu Musab `Abd-al-Wadud, ``A Message to Our Ummah in the 
Islamic Maghreb,'' September 21, 2008.
---------------------------------------------------------------------------
                               conclusion
    Reducing terrorism and insecurity in the Sahel requires steady, 
consistent, long-term engagement by the United States in order to 
address the immediate threat of terrorism and criminality while 
improving human security in a broader sense. There is no silver bullet 
for solving the problems in the Sahel, and the region faces complex, 
interconnected problems that require integrated solutions. Going 
forward, the United States should continue to focus its efforts on 
developing partner capacity. Specifically, the United States should 
seek to build counterterrorist, antiterrorist, and judicial capacity in 
the affected states and, rather than emphasizing military capabilities, 
the United States should focus on programs that support the 
professionalization and modernization of police, investigative, and 
intelligence services. The United States should also push for serious, 
tangible mechanisms for regional cooperation, specifically 
intelligence-sharing, both within the region and with European 
partners.
    AQIM and other terrorist groups will always be able to find 
recruits among the small pool of fellow extremists who share their 
distorted vision of jihad, but their ability to draw active or tacit 
support from populations in the Sahel can be curtailed with a 
combination of targeted security assistance and development aid. 
Activities that allow local governments to reduce AQIM's ability to 
operate while also undermining its appeal to potential recruits stand 
the best chance of reducing insecurity in the Sahel.

    Senator Feingold. Thank you very much, Ms. Kennedy-Boudali.
    Dr. Gutelius.

STATEMENT OF DR. DAVID GUTELIUS, FOUNDER AND PARTNER, ISHTIRAK, 
  CONSULTING SENIOR FELLOW, JOHNS HOPKINS UNIVERSITY APPLIED 
             PHYSICS LABORATORY, SAN FRANCISCO, CA

    Dr. Gutelius. Thank you, Mr. Chairman, for the opportunity 
to testify on a set of issues that I believe is key to the 
stability of both the Sahel and greater Saharan region.
    Today we face an uncertain, complex, ever-shifting 
situation across the nations that straddle the Sahara and 
Sahel. While certain issues seem new--natural resource 
exploitation, the emergence of AQIM, and recent revolts in both 
Niger and Mali--these are, in many ways, simply newer threads 
of a much older weave.
    From a local perspective, neither GSPC nor AQIM are 
considered major threats, nor is Salafism, per se. To those 
living on the southern edge of the Sahara, the most critical 
issues are perhaps not surprising: (1) Environmental 
degradation; (2) differential access to resources and extreme 
poverty; (3) the sharp growth of smuggling; and (4) continued 
political disenfranchisement of key northern populations.
    Many of these issues, with one exception, is new. The Sahel 
has seen serious desiccation punctuated by periodic droughts 
over the last 40 years, which has had a devastating local 
impact.
    Northerners, Berabiche and Tamashek in particular, are 
largely marginalized by southern majorities that control 
national politics, armed forces, foreign direct investment, and 
the foreign aide that flows into Mali and Niger.
    Informal trade remains a staple of economic activity 
through the desert because there are few other ways for people 
to sustain themselves.
    One major exception to these longer term dynamics is the 
changing nature and scale of smuggling. Over the last 4 to 5 
years especially, the volume of the cross-desert trade has 
grown sharply, and cocaine has overtaken other commodities: 
people, cigarettes, fuel.
    This new trade may be creating the conditions for serious 
political disintegration. This, to me, is the largest current 
threat to regional stability, rather than either AQIM 
specifically or reformist Islam more generally.
    My written testimony discusses AQIM's shifting fortunes, 
the tenuous links between ideology and violence in the Sahel, 
the rise of the Trans-Saharan drug trade, and local perceptions 
of the TSCTP response.
    Let me just summarize in saying that the threat of 
instability in the Sahel is very real, but the source of that 
threat is more directly linked to economic desperation, 
criminality, differential access to political and economic 
control, rather than al-Qaeda or Salafist ideology.
    Terrorists do indeed pose a real threat, but we tend to 
give these groups more credit than they deserve. U.S. 
counterterrorism efforts should provide a well-integrated 
programmatic focus on those larger regional challenges and hold 
U.S. agencies and their partners accountable for outcomes. The 
stakes are high and growing, not just for African Governments, 
but for the United States and Europe, as well.
    I look forward to your questions.
    [The prepared statement of Dr. Gutelius follows:]

Prepared Statement of Dr. David Gutelius, Partner, Ishtirak, Consulting 
Senior Fellow, Johns Hopkins University Applied Physics Laboratory, San 
                             Francisco, CA

    Thank you, Mr Chairman, for the opportunity to testify on a set of 
issues that I believe is key to the stability of both the Sahel and 
greater Saharan region.
    Today we face an uncertain, complex, ever-shifting situation across 
the nations that straddle the Sahel and Sahara. It is worth pointing 
out, however, that this is hardly new. While certain factors seem new, 
such as the discovery of and interest in natural resource exploitation, 
the emergence of a new al-Qaeda franchise in AQIM, and recent revolts 
in Niger and Mali, in many ways are simply newer threads of an older 
weave and belong to a much longer history.
    Today the committee is focused on two related subthemes, roughly 
the performance to date of U.S. counterterrorism efforts and especially 
the Trans-Saharan Counterterrorism Partnership (TSCTP) and emergence 
and prospects for violent extremism and criminality in Mali and Niger, 
with a particular focus on al-Qaeda in the Islamic Maghrib (AQIM). From 
a local perspective, neither GSPC nor AQIM have ever been considered 
major threats, nor has Salafism's more violent strain, per se. U.S. 
policy, on the contrary, has made these a priority and in doing so, has 
sometimes made worse local political and social dynamics in Sahel and 
worked to bolster, rather than suffocate, AQIM and the GSPC before it. 
To be sure, AQIM poses a certain kind of threat and the United States 
and its Malian and Nigerien allies have had important tactical 
successes over the last 6 years. But these successes have come at some 
cost, and it is unclear if U.S. officials appreciate that those 
continuing costs affect the overall success of such programs as the 
TSCTP.
    The most critical regional issues are (1) environmental change (2) 
differential access to resources and extreme poverty (3) the growth of 
the value and volume in real terms of smuggling (4) and continued 
political disenfranchisement of northern populations, particularly the 
Tamashek (Tuareg). Yet U.S. policy has more narrowly focused on 
terrorism and extremism, and indirectly addressing these much more 
pressing concerns.
    None of these larger issues--with one exception--is new. The 
southern Sahara has seen serious desiccation punctuated by severe 
periodic droughts over the last 40 years, which has had a devastating 
impact on local livelihoods. Northerners (Arabs and Tamshek in 
particular) are, as ever, largely seen and treated as bandits by the 
southern majorities who control national politics, armed forces, 
foreign direct investment, and the foreign aid that flows into Mali and 
Niger. Informal trade remains a staple of economic activity through the 
desert--there are few other ways for people to sustain themselves in 
the Sahara's edge.
    The one major exception to these longer term dynamics is the 
changing nature and scale of smuggling. Over the past decade, and 
particularly in the last 4 to 5 years, the volume of trade has 
increased and cocaine has rapidly overtaken other commodities (people, 
cigarettes, fuel) in the long distance cross-desert trade. Demand from 
Europe and the relative efficiency of South American cartels in moving 
drugs to and through West African ports has led an exponential growth 
in the value and volume of the trade. Less appreciated, however, is 
that this has affected social and political patterns that may be 
creating more opportunities for political disintegration as the sheer 
number of those involved in this new trade grows. In my view, this is 
the largest current threat to regional stability--rather than either 
AQIM specifically or reformist Islam more generally. I will return to 
this point, below.
                             gspc and aqim
    The fortunes of AQIM and of Abdel-Wadoud (Abdel Malik Droukdal) 
have waxed and waned over the past 5 years since he rose to the head of 
GSPC (Groupe Salafiste pour la predication et le combat). His 
reputation in the community and related ability to command have relied 
on several discrete factors: (1) closeness (real and perceived) to the 
al-Qaeda leadership in Pakistan; (2) success in attacking Algerian 
military targets, the older focus of GSPC's ire; (3) attacks against 
Western civilian targets; and (4) personal relationships between key 
lieutenants (called Emirs) located across the major Algerian provinces, 
and particularly the Emirs of Zone IX, the southernmost Algerian 
province, and other Saharan-based cells.
    By 2005, serious rifts appear to have threatened Droukdal's 
authority and AQIM's ability to keep or attract members. His move to 
ally himself and the remnants of the GSPC with al-Qaeda in 2006 was 
likely a last-ditch effort at shoring up support among a core of 
harder-line, more ideologically driven members of his organization and 
a perceived path to gaining newer, younger adherents. In some ways, the 
move has succeeded. From all accounts, the GSPC in 2005-06 was a 
broken, dysfunctional organization of loosely affiliated gangs, with 
those hiding in the Sahel seemingly more interested in smuggling and 
extortion rather than any particular Salafi Jihadiyya ideals. While 
Droukdal also likely expected a windfall of financial resources and 
perhaps equipment and advisors, AQIM has not done much better than GSPC 
did. It has attracted new members (who appear to be a mixture of 
everything from committed Salafis to common criminals), but also seen 
many of the older guard GSPC leave, retire, or take advantage of the 
periodic amnesty programs Algeria offers. It appears to have received a 
small sum of money from abroad in 2006-07. But it also appears that a 
combination of multinational, multiagency counterterrorism efforts 
effectively put pressure on key transnational networks that could link 
AQIM with other groups.\1\ It seems clear that today AQIM finds it 
difficult to effectively resource its operations from foreign 
donations.
---------------------------------------------------------------------------
    \1\ Souad Mekhennet and Michael Moss, ``Ragtag Insurgency Gain a 
New Lifeline From al-Qaeda,'' New York Times, July 1, 2008. Nicolas 
Schmidle, ``A Saharan Conundrum'' New York Times Magazine, February 13, 
2009.
---------------------------------------------------------------------------
    The Algerian military establishment remained the main stated focus 
of GSPC violence throughout the 1990s and early 2000s. Droukdal's 
somewhat abrupt switch from Algerian military targets to mainly Western 
civilian in 2006 was carefully calculated to manage his new brand. At 
the same time, Droukdal purged much of the senior GSPC leadership, in a 
conscious effort to reject the semi-independence (particularly in an 
economic sense) of what he saw as less ``pure'' Salafists--mainly those 
south of the Atlas Mountains. The calculation also took into account 
the fact GSPC as a brand had a weak reach outside of Algeria proper, 
the fact that America and allies had begun the Pan-Sahel Initiative 
which had already stirred local anger in conservative Islamist circles 
across North and West Africa, and the hope that
al-Qaeda would reward the newly reminted organization for its renewed 
commitment to proper Salafi credentials.\2\
---------------------------------------------------------------------------
    \2\ A fascinating example of this can actually be heard in a New 
York Times audio interview with Droukdal, where Droukdal uses carefully 
chosen classical Arabic when explaining AQIM's Islamist credentials and 
goals, but inadvertently switches to his native Algerian dialect when 
asked about his opinions of Bouteflika and the Algerian Government. He 
literally could not reframe the older, familiar anti-Algerian state 
GSPC rhetoric in the language of the global Jihad. Available at http://
www.nytimes.com/2008/07/01/world/africa/01algeria.html?_r=2&hp&
oref=slogin.
---------------------------------------------------------------------------
    But below the surface, Droukdal balanced a new commitment with 
older GSPC tendencies and principles. Fearful of alienating a large 
contingent of older GSPC members, Droukdal renewed tactically familiar 
hit and run attacks on Algerian military targets even while younger 
members of the AQIM blew themselves up in the hopes of gaining 
martyrdom (for example, the 11 April 2007 suicide bombings in Algiers 
that killed 30 and wounded 220).
    In late 2008 and early 2009, however, AQIM scored important 
victories that have put them in a stronger position, and more 
importantly offered a path to financial independence. The committee is 
no doubt familiar with the spate of recent kidnappings in Mali and 
Niger. More than any other single factor, the willingness of 
governments and companies to pay ransoms for prisoners has been the 
decisive factor in bolstering AQIM and its growing network of 
semiadherents and smuggler allies. It has created in the two several 
years a small-scale industry of targeting foreigners, mostly 
Westerners, and served to help realize some of Droukdal's larger 
ambitions in the region. While formal recruitment into the organization 
is still likely challenging, the organization has been able to 
strengthen its ties with a number of local leaders, throughout the 
Sahara and Sahel--not on the basis of ideology, but mostly on the basis 
of shared economic interests. This does not mean an increase in the 
absolute numbers of fighters under AQIM command, but does mean that 
AQIM is developing an enabling support network for its larger 
interests.
                         ideology and violence
    AQIM's stated brand of Islam is generally and quite often roundly 
rejected in the Sahel. There is something of a stereotype of ``African 
Islam'' being more ``tolerant'' and moderate than Islam as it is 
practiced elsewhere, and like most sterotypes it has a shade of truth 
to it. The vast majority of Muslims in the Sahel follow the generally 
more tolerant Maliki and Shafi'i jurisprudence rather than the Hanbali 
school associated with Wahhabism and Salafism. But the Sahel is 
generally a fairly conservative place; memory is strong (if fluid), 
customary practice matters, and there is a long history of Islamic 
intellectual production--the traces of which are on full display today 
in traveling exhibitions of unique manuscripts from places like 
Timbuktu, Gao, and Agadez.
    It is vital that we not lump reformist-oriented Muslims together. 
Following a more or less conservative interpretation of Islamic law (in 
comparison to what?) does by no stretch necessarily mean sympathy with 
AQIM or even with nonlocal interpretations of Islam such as Wahhabism. 
Do Wahhabi and Salafi ideas find some purchase in the Sahel? To a 
certain limited extent and in some communities, yes. But so do the 
ideas of the Pakistani Jama'a al-Tabligh as well as the Libyan Dawa 
(both of which opened missions in northern Mali in the past several 
years). More importantly, there exists a long, rich and local history 
of quite conservative interpretation of Islamic law; whether within the 
Songhai, Arab or Tamashek populations, sources of reformist thought and 
education are readily at hand.
    The question about the ``spread'' of Salafism/Wahhabism/Qutbism as 
it has so often been posed within U.S. analyst circles (each of which 
is distinct) is both distracting and unhelpful. It presumes both a kind 
of ideological epidemic and weakness of mind on the part of local 
actors. It also presumes a causal connection between ideology and 
violence in the Sahel that does not exist. In any case, countering 
ideology is fraught with difficulty, and carries the burden of 
neocolonialism that makes it nearly impossible to succeed. More 
importantly, however, the presumed spread of Salafi al-Jihadiyya is not 
nearly as important to the stability of the region as more prosaic 
problems of smuggling, differential resource access, and the changing 
natural environment.
    The U.S. has the opportunity to avoid making similar mistakes and 
becoming perceived as a neocolonial power in the region. But this will 
take not just reframing questions and avoiding easy stereotypes of 
entire populations as ``tribal'' and susceptible, but also taking a 
substantively different tack in addressing deeper regional challenges. 
And it will take a level of coordination and commitment that we have so 
far been unwilling or unable to muster.
                               smuggling
    One key variable in the political stability of the Sahel remains 
control of informal capital flows and markets, which, next to aid 
dollars, bolster the wider Saharan region (Keenan 2006: 286-287). The 
question over who gets access to capital of differing types--to a more 
expansive sense of capital that includes social prestige, baraka\3\, 
authenticity, rightful claims to privilege as well as property, goods, 
and currency--and the extent to which local leaders establish their own 
social positions as providers of this capital directly reflect the 
social power they can wield.
---------------------------------------------------------------------------
    \3\ Literally, ``blessing'' or divine presence.
---------------------------------------------------------------------------
    Particularly since 2001, smuggling has become a major site of 
struggle between various interest groups, including U.S. military, 
national governments, and local authorities, as the main way (outside 
foreign donations or investments) for many northern leaders and their 
communities to remain self-sufficient and autonomous. American pressure 
to completely shut down illicit market networks completely in order to 
starve potential terrorist networks has largely backfired so far. Here 
again, Kel Ifoghas and Kunta leaders have told me that the United 
States is increasingly characterized as working with corrupt government 
lackeys against the interests of everyday people in the Saharan fringe, 
the vast majority of whom rely on informal economies to get by every 
day.
    These informal marketing activities include important social 
practices by which communities in desert-side societies not only cope 
with environmental degradation and social change, but also shifting 
formal sector markets that continue to put northern populations at a 
disadvantage. Smuggling remains a long-cherished symbol of autonomy and 
control and an important part of both social practices (ideas of 
protection, blessing, or right of passage) and shifting political 
alliances. Here, religious authority and memory may be mixing in ways 
akin to the 19th century Sahara when the Kunta, for instance, used 
their religious authority to legitimate the tobacco and slave trades, 
partially as a way of competing with reformist Massina leaders in the 
south. Today's struggle over illicit trafficking bears resemblance to 
the ways in which leaders established and deployed Islam both before 
and during the colonial era. The rhetoric of this social process may 
differ, but the outlines of that past remain powerful. This is not to 
make excuses for illicit trafficking, but it does point up that there's 
more to smuggling than outright banditry.
    While analysts rightly point out how ransom revenues has allowed 
AQIM to purchase an ever-more sophisticated array of weaponry, there is 
a far more productive way of putting that capital to work for longer 
term growth: smuggling drugs. The older smuggling operations in people, 
fuel, cigarettes, and other commodities still exist but the potential 
profits simply cannot compare to cocaine. This is relatively new. When 
I first lived in Timbuktu over a decade ago, smugglers favored 
cigarettes as the preferred commodity and had constructed sophisticated 
and relatively efficient mechanisms that included import, remanufacture 
and repackaging, forgery, a secure system of exchange and a network 
that spanned from the ports of West Africa through the Sahara to 
Eastern Europe. The new cocaine operations, bankrolled now by a number 
of stakeholders from major South American cartels to AQIM to Eastern 
European mafia, make the cigarette trade seem quaint.
    As pressures have grown on smugglers since 2002, increased risk 
seems to have recently helped push some key commodity prices higher in 
major Saharan markets, and touched off violent competition between 
major merchant groups operating in and around the desert (Cisse 2003; 
Sylla 2004).\4\ But with the newer cocaine trade there is a 
qualitatively and quantitatively different phenomenon. The stakes and 
scale of both the extended trade networks supporting it and the levels 
of violence are growing at an alarming rate. And trying to kill off the 
entire regional informal economy without viable short- and long-term 
livelihood alternatives would likely have the opposite effect to what 
most American strategists and Bamako or Niamey politicians intend: that 
is, it would increase political instability in the north and ire 
against the governments of both Mali and Niger.\5\
---------------------------------------------------------------------------
    \4\ The recent bitter feud between prominent Kunta and Moor 
families, particularly since 2003, are apparently linked to these 
market shifts--again with echoes of competition that are, in this case, 
well beyond a century old.
    \5\ Certainly the recent history of the unintended consequences of 
trying to quash black markets can provide lessons, most particularly in 
Afghanistan and Columbia.
---------------------------------------------------------------------------
    The rise of the cocaine trade, fueled by South American cartels' 
credit and transport from West African ports, has grown exponentially 
over just the past 5 years. The United Nations Office of Drugs and 
Crime estimated that West Africa handled 40 to 50 tons of cocaine, 
worth an estimated $1.8B at European wholesale prices, in 2007.\6\ The 
real volume is likely much higher.\7\
---------------------------------------------------------------------------
    \6\ Douglas Farah, ``Confronting Drug Trafficking in West Africa'' 
Testimony before the Senate Committee on Foreign Relations Subcommittee 
on African Affairs, June 23, 2009.
    \7\ Thomas Harrigan of DEA estimates between three and five times 
higher than the U.N. estimate in 2007. See his ``Confronting Drug 
Trafficking in West Africa'' Testimony before the Senate Committee on 
Foreign Relations Subcommittee on African Affairs, June 23, 2009.
---------------------------------------------------------------------------
    This growth has worked to both destabilize authority (both central 
government authority and that of local leaders) and catalyze or 
concretize networks that support the trade. If the trans-Saharan 
cocaine trade develops as other cocaine smuggling routes have, we can 
expect to see an explosion of violence as different gangs, groups, and 
factions vie for control and a share of the profits. Distribution 
networks will be paid in drugs, which will likely fragment competition 
and gradually draw more people into the traffic. Again, if history is 
any guide, this will likely infect police and military forces and could 
eventually lead to the Sahel to become a fragmented narcoregion.\8\ And 
in fact, the phenomenon is currently on full view in places such as 
Senegal, where drug money is reportedly fueling a building boom in 
Dakar.\9\
---------------------------------------------------------------------------
    \8\ Farah, ``Confronting Drug Trafficking in West Africa.''
    \9\ Christopher Thompson, ``Fears for Stability in West Africa as 
Cartels Move In.'' Guardian U.K. March 10, 2009.
---------------------------------------------------------------------------
    So far it remains unclear how deeply involved the AQIM organization 
is in these networks, but anecdotal evidence suggests that individual 
AQIM members--particularly operating in Mauritania, Mali and Niger are 
already directly involved.\10\ It seems clear that at least sections of 
AQIM are not just willing to engage in drug smuggling, but are also 
looking for additional ways to support their future operational 
activities. Their expansion in the Sahel will depend less on finding 
those who share their ideology and more on where economic opportunities 
coincide with other groups. Again, this highlights the importance of 
the larger shifts in informal markets, protection rackets, and money 
laundering rather than the particular attitudes and ideologies in the 
future of AQIM in the region.
---------------------------------------------------------------------------
    \10\ Cf. the blog Moor next Door, ``AQIM-Mauritania--Quite Saharan, 
In Fact.'' Sept 21, 2008. Accessed 11/10/09 at http://
themoornextdoor.wordpress.com/2008/09/21/aqimmauritania-quite-saharan-
in-fact/.
---------------------------------------------------------------------------
                     pan-sahel initiative and tsctp
    In 2002, the U.S. Government's goal was simply to watch and monitor 
activity in and around the Sahara, since at that point there was little 
consensus within the American administration as to what next steps 
should be. What began as an extension of intelligence gathering, 
however, became an important campaign to quash what at that time was 
loosely referred to as ``Al Qaida in Africa.'' In late 2002, this 
culminated in the formation of the Pan Sahel Initiative (PSI), the U.S. 
State Department-funded, Defense Department-run program meant to 
provide training and equipment to regional militaries as well as to 
develop military-to-military relationships with key regional military 
commanders.\11\ American military advisors spent time in Mauritania, 
Mali, Niger, and Chad between 2003 and 2005, training security forces 
in weapons and communications technologies, small unit maneuvers, and 
mobile warfare.
---------------------------------------------------------------------------
    \11\ See the State Department's official announcement at http://
www.state.gov/s/ct/rls/other/14987.htm.
---------------------------------------------------------------------------
    From the beginning in 2003, key Tamashek and Arab populations were 
largely left out of PSI-sponsored activities, exacerbating the 
longstanding ill-will between these groups and the national governments 
of Niger and Mali. This fact, combined with the rhetoric U.S. officials 
and their local allies used at the time very quickly brought out older 
tensions and suspicions, and linked them to the U.S. military.\12\ 
Fearful, highly speculative language remains a common element in 
reports and public statements from the American Government--statements 
which are widely published and easily accessible across Mali and Niger, 
including the north (Fisher-Thompson 2004; USAID 2005: 3-4; Keenan 
2006: 274-275). Part of this self-
fulfilling prophecy stems from the outlook of U.S. analysts and other 
personnel, who have tended to lump reformist leaders and organizations 
in the Sahel as undifferentiated Salafist-oriented threats to regional 
peace and stability. On a trip into the north of the Mali, for example, 
former U.S. Ambassador to Mali Huddleston warned with alarm: ``With the 
Dawa [alTabligh], were dealing with something even more worrisome 
because they're in the north. The Salafists are in the north and they 
are terrorists. And there are connections between them.'' (Anderson 
2004) This attitude, along with the Malian Government's responses, had 
the effect of driving Islamic missionaries and at least some Muslim 
community leaders closer together (Kimbery 2005).
---------------------------------------------------------------------------
    \12\ Gutelius, ``U.S. Creates Enemies Where There Were None,'' 
Christian Science Monitor, June 11, 2003.
---------------------------------------------------------------------------
    Rumors of inappropriate conduct of U.S. personnel also began to 
spread across the southern Sahara over 2004, and public statements by 
American military leaders and interpreted and rebroadcast by northern 
political leaders added to resentment among northern leaders (ICG 2005: 
31; U.S. House of Representatives 2005: 22-27). The rhetoric on the 
American side often continues to repeat allusions to the Sahara as a 
lawless, traditionally violent place; a breeding ground for terrorists, 
and a swamp that needs draining (For example, Powell 2004; CBSNews 
2004; Motlagh 2005; McKaughan 2005). Political pundits and armchair 
analysts in the West have used the repeatedly same imagery and even 
phrases repeatedly--imagery that some political clients in Mali and 
Niger in the Sahara have since adopted in their own statements as way 
of attracting and maintaining American aid (Diarra 2006; Takiou 2006). 
On the desert side, stories about these stories and about U.S. forces 
began to spread both informally among trade networks and in radio 
broadcasts--at a time (in 2003) when the American military in Iraq had 
become the daily focus of every Middle East media outlet in the world.
    For its missteps, PSI also had clear and important successes, most 
notably in helping to capture El Para and a number of accomplices when 
they kidnapped several dozen European tourists in 2003. But these 
strategic successes have come at some cost. In Mali and Niger, PSI 
money and programs acted to widen the perceived gulfs between north and 
south, as well as between northern nomadic and sedentary populations. 
The U.S. has funneled millions of aid dollars to the Malian and 
Nigerien Governments since 2003 under PSI and subsequently under TSCTP. 
Northerners complain that these new moneys have remained solidly within 
the hands of the Bambara-dominated government, taking both local 
political and economic opportunities away from local people. It seems 
that whatever the case, the PSI program aid--and to a lesser extent, 
TSCTP aid--quickly became a politicized symbol of a contest for power 
in the North. It is unclear to what extent this affected the dynamics 
of the most recent (but separate) Tuareg rebellions in Mali and Niger 
in 2007-09, but infighting and claims of economic and political 
oppression became core rallying cries of both movements.
                              ways forward
    In assessing the effectiveness of U.S. counterterrorism activities 
and particularly the TSCTP, I can only speak from the perspective of 
(a) what I see firsthand and through local French and Arabic press and 
(b) what locals and NGO practitioners in Northern Mali, and less 
directly, in Niger tell me--and less from any privileged government 
view.
    Partnering with the Malian and Nigerien Governments, while without 
a doubt necessary, has had a mixed record, in my view. The emphasis on 
working with national-level institutions, while necessary, creates a 
preset friction in the northern Sahel that is difficult to overcome 
without balancing those efforts with more local society outreach, 
sustained local presence and specifically nonmilitary programming. 
PSI's initial execution increased local resentment of both national 
armies and their U.S. backers. Over time and with TSCTP, the United 
States began to alter the approach and although TSCTP programs are 
showing the first signs of progress, more needs doing. Related, TSCTP 
programs appear as overly executed by proxies, whether those are NGO 
subcontractors or Malian and Nigerien Government institutions.
    Agencies involved in TSCTP should consider increasing their 
presence where establishing long-term local relationships are key to 
the success of its programs. There continues to be a severe lack of 
information about ongoing programs and their effects at the local 
level, in large measure because we have few people on the ground and 
few specialists with relevant languages and training interfacing with 
local communities. Funding for local data gathering and analysis, 
including survey instruments, should be a part of the TSCTP toolkit 
(and in fact exactly such a capability has inexplicably been removed 
from AFRICOM's FY 2010 budget). This may also mean opening staffed 
offices in Timbuktu, Agadez, and perhaps even Kidal. At the same time, 
more concerted nonmilitary efforts to visit effected communities on the 
desert edge, support of local cultural programs and institutions, and 
above all addressing local economies' viability are all requisite to 
addressing the larger issues of stability in the Sahel. In this 
connection, appropriate diplomatic pressure should be brought to bear 
on both Bamako and Niamey to ensure that aid and other resources are 
reliably reaching populations in the north of Mali and Niger and that 
U.S.-funded programs are having some expected local impact.
    Can innovative technology help in addressing these questions? Yes, 
particularly in better information gathering, coordination, and 
decisionmaking. At Ishtirak, for example, we are working with NGOs and 
corporate social responsibility programs on a series of tools that can 
track development projects, lessons learned, and metrics, and assist 
with program planning and resource allocation. This can be coupled with 
lightweight data collection applications that work on any modest mobile 
or satellite phone, providing a near-real time picture of what's 
happening, who's involved, and how to improve outcomes. Technology, 
appropriately designed and deployed, can provide transparency, 
accountability, and coordination at a much higher level than we see 
today. As most of this technology is based on free open source 
software, there is no excuse not to make the most of it.
    USAID, at its best, is one of the most effective ways to change 
minds on the ground about the United States and its motives. It needs a 
larger presence in the region, and should make program and 
infrastructure investments in concert with other U.S. agencies, 
development NGOs, and local partners. We should increase commitments to 
local livelihood programs and environmental monitoring and training 
programs and target more specifically fragile communities scattered 
across the Sahara's southern edge. GeekCorps and other creative USAID 
communications programs should be focused to improve communications 
networks in these areas, and should create a cadre of Malians and 
Nigeriens who can help sustain these networks on an ongoing basis. Most 
importantly, sustainable, small-scale businesses are needed to 
counteract the growing influence of illicit trafficking.
    AFRICOM must work in concert with USAID and other agencies in both 
meeting the demands of the TSCTP and its own mission. While the command 
is still in its early days, General Ward has a chance to shape an 
innovative, nimble organization that works cohesively with both local 
African partners and other U.S. Government agencies. AFRICOM is making 
headway and this should be commended and fully supported. But there is 
also a great deal of suspicion on the part of those who have not seen 
direct benefit from its military-to-military exchanges. AFRICOM should 
consider extending its outreach activities directly to those in 
northern Mali and Niger, in ways that also align with bettering lives 
in the region. And of course, working closely with USAID and the 
Department of State here can help in a number of ways.
    Many of these ideas are recognized within U.S. policy circles 
already. The GAO completed an assessment of the TSCTP in July 2008 and 
found a number of aspects of the program that needed improvement.\13\ 
There is no comprehensive, integrated TSCTP plan. TSCTP lacks both 
coherent high-level goals and metrics for assessing progress against 
those goals over time. This holds true for U.S. Government activities 
and with Malian and Nigerien partners. While interagency coordination 
seems to have improved over time, it is clear that cooperation needs 
improvement. Continued tensions over State Department's authority over 
Defense Department personnel under TSCTP reflect this need.
---------------------------------------------------------------------------
    \13\ GAO, GAO-08-860 ``Combating Terrorism: Actions Needed To 
Enhance Implementation of the Trans-Sahara Counterterrorism 
Partnership,'' Report to the ranking member of the House of 
Representatives Committee on Foreign Affairs, July 2008.
---------------------------------------------------------------------------
    Beyond this, however, TSCTP needs to shift its frame of reference 
from terrorism per se to the context that makes a sustained AQIM 
possible. It must more directly address the deeper, more immediate 
threats to Mali and Niger: environmental degradation, systematic 
disenfranchisement of Northerners, and the new smuggling economy. TSCTP 
in its current form will likely never have more than tactical successes 
against what is in reality small, loosely organized, opportunistic 
terrorist franchise--because addressing the larger threats are largely 
secondary to its focus on terrorism.
    We must be clearer about what the stakes are in the Sahel and what 
our national interest is. I can tell you that the local perception, 
based on PSI and the initial activities under AFRICOM and the TSCTP is 
still strongly that the United States is first concerned with 
protecting and expanding American economic interests followed by 
controlling an al-Qaeda threat that exists mostly in the minds of 
American Government analysts and some European allies. The more we 
ignore the region's larger issues, the more this misperception gets 
reinforced.
    In summary, the threat of instability in the Sahel is real, but the 
source of that threat is more directly linked to economic desperation, 
criminality, and differential access to political and economic control 
rather than al-Qaeda or Salafist ideology. AQIM and its allies still 
pose a real threat. But we tend to give the group more credit than it 
deserves. U.S. counterterrorism efforts should provide a well-planned, 
integrated programmatic focus on those larger regional challenges and 
hold itself and its partners accountable for outcomes. The stakes 
related to the growing criminality in the region that feeds violence 
and erodes societal institutions are high and growing--not just for 
African Governments, but for the United States and Europe as well. We 
ignore these at our collective peril.

    Senator Feingold. Thank you very much. And I certainly 
agree with you that the problem here has to do with the types 
of things you're talking about. It's an environment in which 
al-Qaeda-type organizations can thrive, but that is not 
necessarily the leading issue. It's something we have to 
address as a country with regard to our national security 
interests. But, having been to most of these countries, I 
certainly would share that assessment.
    Let me start with Ms. Kennedy-Boudali. You wrote in your 
testimony that one of the reasons AQIM has turned its focus to 
the Sahel is that it has not been able to organize operational 
cells in Morocco or Libya or Tunisia. In your view, why is 
that? What challenges does AQIM face in these three countries?
    Ms. Kennedy-Boudali. Thank you, Senator. I think that's a 
really important question, because those three countries are 
the most logical partners for AQIM to seek support--support or 
recruits. But they have been unable to do so, in part because 
those states are that much more capable than the Sahel states, 
in terms of their ability to monitor extremist recruitment in 
their region, in their ability to keep track of who's entering 
and exiting the country, and in their ability to control their 
populations, frankly. Those three states have very strong 
security services, as I mentioned. In Morocco, in particular, 
after the bombings in Casablanca in 2003, there was a wave of 
arrests, as I'm sure you're aware, of extremists; not only 
those with jihadist tendencies, but anyone who opposed the 
government, frankly. And as a result, whatever public support 
there might have been for terrorist activity was fragmented and 
splintered.
    In the case of Libya, there was a jihadist movement that 
was quite active there in the 1990s, but it is severely 
weakened. And, additionally, a number of the jihadists that 
might have supported AQIM in Morocco, Libya, and Tunisia have 
probably switched their attention to conflicts elsewhere, such 
as in Iraq and Afghanistan.
    So, the pool of recruits that might have supported jihad in 
the region may now be more interested in looking toward Iraq or 
Afghanistan as a theater for their activities.
    Senator Feingold. You write that, while AQIM has succeeded 
in recruiting some fighters from the Sahel, its overall success 
in attracting new recruits is actually marginal. Now, to what 
do you attribute that lack of success, and what are the 
constraints to AQIM expanding its region's support in the 
Sahel? And you've alluded to some of these already, but----
    Ms. Kennedy-Boudali. Within Algeria, Senator, I think it's 
important to remember the context of that country's experience, 
with an extremely bloody civil war in the 1990s that killed--
estimates range up to hundreds of thousands of people.
    So, I think there's a sense, in Algeria itself, that the 
people are, quite simply, tired of hearing about these jihadist 
groups, and they're not supporting them because they've seen no 
benefit from them. They're--they make the lives of the people 
more difficult through extortion, through roadblocks, through 
violence and criminality. They're not proposing any positive 
political solution. They're seeking to overthrow the state, but 
I don't think people in the region see that their success would 
be any kind of improvement in their lives.
    In the Sahel region--this has been mentioned by the 
previous panel, as well--I think AQIM's idea of what Islam 
means and what a good Muslim should do is, quite simply, an 
anathema to the people in the region. They don't support the 
idea of a Shariah-based governance; they're not interested in 
overthrowing the states in the region. It's just not a very 
competitive message.
    Senator Feingold. And you've mentioned the Tuareg, most of 
whom do not share al-Qaeda's ideological goals, either. What do 
you see as the key to gaining the support of Tuareg communities 
in the fight against AQIM?
    Ms. Kennedy-Boudali. I think this is probably the most 
important question regarding ways to disaggregate the threat in 
the Sahel. Different populations of Tuareg have different 
interests, so we don't want to bunch them together. Certainly, 
there is an element of some of the Tuareg populations that is 
involved in criminality, and they are probably best 
disaggregated from AQIM by highlighting the danger to 
themselves that AQIM has posed, because the increase in their--
AQIM's--activity in the Sahel has drawn the attention of, not 
only American, but also European and local security services. 
AQIM is making peoples' lives harder there.
    For the majority of the Tuareg, who are law-abiding 
citizens with political concerns about representative 
government or the level of state interference in their affairs, 
I think governments in the region need support in finding 
solutions to reduce those grievances, whether that's a matter 
of increased educational opportunities, education in local 
languages, or increased access to economic opportunities, by 
presenting a better alternative. I think whatever level of 
Tuareg support or tolerance or tacit support may be going on, 
it could be reduced through engagement.
    Senator Feingold. Thank you very much.
    Dr. Gutelius, I'm very interested in your observation of 
the trade in cocaine across the Sahel as rapidly increasing. 
And this subcommittee held a hearing earlier this year to 
explore the growing problem of drug trafficking in West Africa. 
In your assessment, what is driving the increasing trade in 
cocaine, and who are the key players in the trade?
    Dr. Gutelius. Yes, that's an excellent question, Senator, 
thank you.
    This is really a change over the last 5 years of, you know, 
being based in the north, living in Timbuktu for some time in 
the late 1990s, I've watched the nature of smuggling really 
change in pretty substantial ways.
    It seems clear that South American cartels are directly 
involved from the supply end, but it goes beyond that. These 
cartels, as you've heard testimony on before, have a quite 
sophisticated array of both ways of getting the goods to the 
eventual markets, but also things like financing mechanisms. 
They've done this before, they're very experienced at it, and 
now it seems that they're following a similar pattern in West 
Africa, which I think is, you know, akin to the cancer we see 
throughout Central and South America.
    The November 5 crash outside of GAO--I don't know if you're 
aware, but it was a--I think it was a DC-10, about 10-ton 
capacity flying from Venezuela, crashed on takeoff; it was able 
to deliver its goods, unfortunately, and forces are still 
trying to recover those. But, it highlights this problem of 
these desert-side entrepots--these desert-side centers--for the 
trade across the Sahara.
    The other part of the problem, obviously, is demand, and 
largely demand in Europe now, which is driving that trade and 
sucking it across the desert. The profits involved, I'm afraid, 
are driving different kinds of social and political 
relationships in the desert that I haven't seen before, 
alliances that I wouldn't have expected, necessarily.
    Senator Feingold. Give an example of an alliance----
    Dr. Gutelius. Well, so, in the older--say 6 to 8 to 10 
years ago, with the cigarette trade, which was the kind of king 
trade across the Sahara, in terms of profitability--about a 
billion-dollar industry 5 years ago--was really run by a set of 
Berabiche and Tuareg families, Tamashek families, that were 
fairly well known, they'd been in the trade for awhile, and, 
you know, had established networks that not only got the goods 
from West African ports, but also safely across the desert to 
their partners in North Africa.
    Those same families are now competing with new kinds of 
networks that are much more directly related to the cocaine 
trade; much more specialized, in some ways. And that poses a 
problem for those older families and the power structures that 
they represent.
    So, young guns--Lianne and I were actually talking about it 
before the session--young guns are actually able to challenge, 
in some ways, these more established networks. And a big 
problem there is that the middlemen are being paid now--just 
like we see in other areas where drug smuggling's a problem, 
being paid in drugs.
    So, you have--as the sheer number of people involved in the 
trade grows, you have this possibility that the cancer that has 
affected other parts of the world will infect these societies, 
as well. That's not the case yet, but I fear, given the current 
trajectory, and just the, it seems, focus of the South American 
cartels and the ease with which they can still move those goods 
across the desert, that's where we're headed.
    Senator Feingold. OK.
    Doctor, you were critical in your testimony of the tendency 
by U.S. analysts to sometimes conflate the spread of 
conservative Islam, particularly Wahhabism, and violent 
extremism. What are the implications of this tendency for 
counterterrorism efforts? And how could you recommend that the 
United States could shift its programming to avoid this kind of 
conflation?
    Dr. Gutelius. I think there are several areas that we can 
focus on, and first and foremost is continuing to improve the 
execution of TSCTP. I think it's an innovative program in many 
ways, it can be an example for similar types of programs in the 
future. At this point, I still have to agree with the 2008 GAO 
assessment. And, from what I see on the ground, there's still a 
lot of fragmentation, in terms of, again, carrying out the 
program elements.
    I think, from a Washington, DC, perspective, I think they 
are making a lot of progress, in terms of coordination. From a 
field perspective, from an on-the-ground perspective, it 
doesn't look that way.
    So, I think a lot can be done there to harmonize what's 
happening on the ground. I think a big need is simply to listen 
a lot more for what some of these local populations, especially 
the targeted populations--Berabiche and Tamashek--want and need 
in their communities.
    And I think the speaker from the previous panel--Ambassador 
Gast, I believe--mentioned listening clubs in Niger. And that's 
a great example. That's a great example of creating support on 
the ground and using that information to drive priorities, in 
terms of--whether it's USAID or AFRICOM types of activities.
    Senator Feingold. Thank you, Doctor.
    Finally, before I turn to Senator Isakson, I agree with you 
that we need to increase our diplomatic presence in order to 
better gather information and build long-term local 
relationships. And I've been saying this about many neglected 
regions of Africa for many, many years.
    If you were to advise the United States on expanding our 
presence in the Sahel, where would you begin? In your view, 
where could opening a new U.S. office tomorrow make the biggest 
difference?
    Dr. Gutelius. Yes. I think, Timbuktu, for a few different 
reasons. It's geographically central and allows us a kind of 
reach, not only in terms of just purely geography, but also 
culturally, that would afford us much more reach into the 
communities that we're interested in working with. And that's 
not simply the Tuaregs who, you know, many of which are based 
up in the Kidal region. But, also, it is, traditionally, a kind 
of, sort of, cross section of the desert population down there. 
So, that's one area, I think, where having a permanent mission 
or some small presence, especially with the State Department or 
USAID kind of leading that outward-facing representation of the 
United States would make a huge difference, in terms of 
credibility, for local populations.
    Senator Feingold. Well, I strongly agree with that. I had--
one of the most memorable moments of my career was in Timbuktu, 
meeting, having lunch ceremony with the local Tuareg and other 
people, and we were discussing these kinds of issues, but also 
the broader range of issues. And this sense of it being not 
only a critical place now, but a traditional crossroads, as 
well as the classic center of Islamic learning, centuries ago. 
It really does make sense as a location.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. I apologize I was 
late, to both of you. I really have two questions. The first, 
just to both of you. I think you both were here for the 
previous panel, is that not correct? If I state this wrong, 
please correct me, but our policy with regard to the 
partnership in the Sahel is basically to be a partner but sort 
of a step back from the forefront. Do you agree? I'd like for 
both of you to answer this. Do you agree with the posture the 
United States is taking with regard to the Counterterrorism 
Partnership?
    Dr. Gutelius. I'll begin. Thank you, Senator.
    In a sense, yes, especially when we're considering--
specifically counterterrorist activities, and specifically with 
our AFRICOM initiatives. I think that's the right thing to do. 
I think that can be balanced; if you look at the program as a 
whole, I think that can be balanced. And, in fact, I think we 
need to actually put a United States or American face on 
especially some of the development activities that are 
happening, even ones that AFRICOM carries out. I think that's 
an important message that we're interested in more than simply 
bolstering militaries. We're interested in actually improving 
societies, in a very general sense.
    And so, in a sense I understand the approach to kind of 
being a silent partner; at the same time that generates some 
cost, I think, for us. And one of the best ways this country 
has of showing its support for development worldwide is USAID. 
And I would love to see them more, kind of, publicly on the 
ground, creating these programs, and, again, putting an 
American face on the effort.
    Senator Isakson. So, not a bunch of a public face in 
counterterrorism, but a big public face in terms of economic 
development, health care, things of that nature. Is that what I 
hear you saying?
    Dr. Gutelius. That's correct.
    Senator Isakson. Yes, ma'am.
    Ms. Kennedy-Boudali. I would agree with what Dr. Gutelius 
has said. And I would add that I think that approach is 
appropriate; to keep the counterterrorism and antiterrorism 
mission somewhat in the background, because it is very prone to 
misinterpretation in the region, particularly with the--I don't 
want to say the tendency--particularly with the fact that there 
are few trusted media outlets in the region, and so there's a 
great deal of rumor and misinformation and misinterpretation 
about the U.S. military presence in the region.
    I think one of the things that could be done better is 
explaining to local governments and local media outlets what 
exactly the United States is doing in the region, to reduce 
this tendency for misinterpretation.
    As far as putting a U.S. face on development activities, I 
think that's a great idea, and it does build--it does support--
it could contribute to a reduction of anti-American sentiment, 
particularly programs, not only like USAID, but also the Peace 
Corps, which I--Senator, I believe you're also a member of the 
committee that governs Peace Corps funding. And that's dollar 
for dollar, a great program that puts an American face on very 
positive work that's done in the region.
    Senator Isakson. Yes, it's something we lovingly refer to 
as ``soft power'' around here, but it is very important. I have 
not traveled to any of these countries, but many all around it 
where we have significant USAID, CARE, Save the Children, the 
Basic Education Coalition, and others that are winning a lot of 
friends and really changing the lives of the African people.
    I have one other question. And I was reading the 
conclusion, Ms. Boudali, of your report, where you talked about 
there not being a silver bullet for solving the problem. I 
certainly agree with that, but I have a great concern because 
when you look at the map and you end at Chad, if you go further 
to the east is Sudan, next is Ethiopia, and next is Somalia. 
And if the Comprehensive Peace Agreement--which comes to a 
head, I think, February 2011--falls apart, and we get into 
civil war in Sudan again, it is close to tying a heavily 
terrorist-based Somalia closer and closer to some of these 
other organizations. Is that something that you worry about, or 
is the expanse of territory between the Sudan and Ethiopia so 
great you wouldn't worry about it?
    Ms. Kennedy-Boudali. That's a good question, Senator. I 
would worry about it, but I think we want to be careful to keep 
the caveats in mind. As you mentioned, there is a distance that 
separates those two conflicts, currently--not only a geographic 
distance, but there's also a cultural distance--that we should 
keep in mind.
    One of the things that we know now from declassified 
documents is that al-Qaeda has experienced difficulty operating 
in Africa, and they are considered foreigners when they go 
there. So, despite the fact that they do seem to be 
increasingly involved in the conflict in Somalia, there are 
reasons to think that there are local interests that are not 
particularly supportive of al-Qaeda. And, although there has--
it looks like there's some evidence of trafficking of weapons 
and people and things back and forth from the Horn of Africa to 
the Sahel and to North Africa, those relationships have existed 
throughout time. And I think when we look at those two 
conflicts, we need to keep in mind that there are some 
differences between them.
    I think it is important to watch what's going on and keep 
in mind what assistance we might give to states in the region 
that would particularly help them monitor borders and to keep 
track of flows of goods and people, because that could be one 
of the earliest indicators that there is a greater connection 
between the two theaters.
    Senator Isakson. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Isakson, for your very 
active participation in this helpful hearing.
    I want to thank the witnesses very much for your expertise 
and for your sharing it with us.
    And that concludes the hearing.
    [Whereupon, at 12:35 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Assistant Secretary Johnnie Carson to Questions Submitted
                     by Senator Russell D. Feingold

    Question. As was mentioned, there have long been tensions between 
nomadic Tuareg communities and the governments in Niger and Mali, 
leading to a series of rebellions in the past. The most recent 
rebellions have ended, thanks to successful peace talks in both 
countries, but AQIM may seek to exploit lingering resentment among the 
Tuareg and to link up with existing rebel groups. How much of a concern 
is this and what can be done to prevent such partnerships from forming? 
Is there any risk that we could become a target of Tuareg grievances 
and play into AQIM's hands if we are seen by them as too closely 
associated with the government and specifically the military in Mali 
and/or Niger?

    Answer. Tuareg communities in Niger and Mali have not proven 
receptive to
al-Qaeda in the Islamic Maghreb's (AQIM) ideology or tactics. There 
have been isolated instances where Tuaregs have tolerated AQIM's 
presence in their areas or entered into temporary arrangements to 
facilitate smuggling or other opportunistic trade. This dynamic has 
been problematic in cases where AQIM has purchased goods locally and 
provided small amounts of food and other consumables to generate good 
will or at least tolerance among those living in the vicinity. However, 
we have not seen a trend toward durable alliances or successful 
recruitment of individual Tuaregs. In fact, there have been indications 
that AQIM's murder of a Malian military officer this summer, the 
unprecedented execution of a British hostage, and murder of an American 
in Mauritania may have alienated certain groups in northern Mali that 
occasionally did business with the group.
    We recognize, however, that AQIM may wish to exploit low levels of 
development and frustration produced by unmet economic expectations in 
northern Mali. Furthermore, in Mali a political settlement of Tuareg 
unrest is closely linked to promises of government attention and 
resources to the underdeveloped north. Whether in service of countering 
prospective extremism, or preventing renewal of tensions between the 
Tuareg and the Government of Mali that could undermine the recently 
solidified united front against AQIM, government development efforts in 
northern Mali are important. We are also concerned that breakdowns in 
the rule of law and poor economic conditions in certain areas have made 
individual Tuaregs and non-Tuaregs receptive to AQIM offers of bounties 
for hostages.
    The United States has traditionally enjoyed good relations with 
Tuareg communities and our strong ties with the Malian Government have 
not negatively impacted those relations. Our Embassy in Bamako 
implements a range of outreach initiatives, including radio 
programming, with communities in the north that include Tuareg 
populations. USAID and State Department resources support a range of 
conflict resolution and development initiatives. In Niger, this has 
included the ESF-funded U.S. Institute of Peace conflict mitigation 
workshop held in Niamey in October 2008, which the High Commissioner 
for Restoration of Peace personally credits for advancing peace talks 
with rebel Tuareg groups. We have also been unequivocal during our 
contacts with Tuaregs and government officials that we support peaceful 
resolution of outstanding political and economic disputes.

    Question. As you know, Niger is in the midst of a political crisis. 
I am pleased that the administration has spoken out against the 
disputed legislative elections there in October and President Tandja's 
blatant disregard for democratic institutions. What is the 
administration currently doing to press for the resolution of this 
political crisis? And if it is not resolved soon, how will it affect 
our ability to cooperate with Niger on counterterrorism matters?

    Answer. Our Ambassador to Niger on several occasions has made it 
very clear both to President Tandja and to other levels of the 
Government of Niger (GON) that there will be consequences to President 
Tandja's recent undemocratic actions. We are cutting off all bilateral 
nonhumanitarian assistance to the government and have placed visa 
restrictions on government officials who block Niger's return to 
democracy. We also support the efforts of international and regional 
organizations, such as the Economic Community of West African States 
(ECOWAS), the African Union, and the European Union, to pressure the 
Nigerien Government to return to democracy. ECOWAS, for example, has 
recently suspended Niger and sent a high-level mediator to start a 
dialogue between the GON and the opposition. The United Nations 
Secretary General offered for U.N. offices to work with regional 
partners, in particular the African Union and ECOWAS, to find a 
solution to this political crisis.
    The current political situation limits the scope of our 
counterterrorism engagement with Niger. Prior to the events of the last 
several months, our military-to-military engagement had already been 
severely curtailed following credible reports of human rights 
violations by a Nigerien military unit. We anticipate using a similar 
approach to that used in Mauritania after the August 2008 coup, where 
security sector engagements were limited to low-profile activities that 
addressed potentially imminent threats. Security-sector engagements 
with longer term capacity-building objectives were halted.

    Question. In the case of Chad, we are engaging with government that 
has a troubling record with regards to the rule of law and respect for 
human rights. As you know, the State Department's most recent human 
rights report for Chad cites ``torture and rape by security forces'' 
and ``the use of excessive force and other abuses in internal conflict, 
including killings and use of child soldiers.'' Given that record and 
the lack of internal controls for accountability, does it make any 
sense to provide new capabilities to Chad's military without 
significant reforms? Outside of training and equipping the military, 
what are the other ways we can engage with the government there to 
strengthen the rule of law and law enforcement?

    Answer. We continue to engage with the Government of Chad (GOC) on 
its human rights record, in particular, because of its abuses by its 
security forces and we do hold them accountable when abuse is 
confirmed. The GOC has taken steps to address certain human rights 
abuses, most notably the issue of child soldiers. The government, along 
with UNICEF, has visited Chadian military barracks in recent months to 
raise awareness on the issue of child soldiers and hand over child 
soldiers to UNICEF. We continue to urge the GOC to launch initiatives 
to eradicate child soldier recruitment and enforce the Chadian National 
Army Law prohibiting such recruitment. The GOC has also made its own 
attempts to reform the Chad Armed Forces (ANT) since February 2008, 
including efforts to support ethnically mixed units, eliminate military 
salaries to nonauthorized persons and enforce mandatory retirement for 
long-serving generals to rationalize its command structure. The GOC has 
further plans to retire some 300-500 colonels in the coming months.
    The State Department seeks to ensure all Leahy vetting requirements 
are met. The State Department conducts thorough Leahy vetting 
procedures on any USG training of security officials or units, and has 
denied trainings due to reported human rights abuses. In an advocacy 
effort, we regularly discuss with the GOC our concerns with reports of 
human rights abuses attributed to individuals in the Chadian Army 
(ANT), including specifically with the PSI chain of command. Chad's
PSI unit and its new chain of command recently have been vetted and 
cleared for training.
    U.S. counterterrorism (CT) training will not provide Chad with new 
capabilities, but will provide its CT unit with expertise and training 
on combating terrorism. This training will have a multiplier effect on 
our ability to achieve other U.S. strategic goals in Chad. Trans-Sahara 
Counterterrorism Partnership (TSCTP) security assistance can 
professionalize Chad's Armed Forces, including training on respect for 
human rights, while making the exercise of state power more legitimate 
in the eyes of the Chadian people and making Chad a more reliable 
partner in efforts to reinforce regional security. Our programs allow 
U.S. security experts to reach out to Chadian police, customs officers, 
and other law enforcements officials as well as to the Chadian 
military.
    Governing justly and democratically is a USG strategic goal that 
includes strengthening the rule of law in Chad. With limited Economic 
Support Fund resources, we have provided support for the Justice 
Ministry, and coordinate with our international partners, including the 
EU, which has a 35 million euro project to strengthen Chad's judicial 
system, including 4.8 million euros for training criminal 
investigators, magistrates, court clerks and other justice personnel, 
including those working in the penal system. For the rule of law to 
take hold in Chad, a change in mentality needs to occur and this must 
begin at an early age. Accordingly, we have supported the Education 
Ministry's efforts to develop a standardized civics education 
curriculum for Chad's schools, which led to the development of locally 
produced textbooks for grades 1-12 currently being used throughout the 
country.
                                 ______
                                 

   Responses of Coordinator for Counterterrorism Daniel Benjamin to 
           Questions Submitted by Senator Russell D. Feingold

    Question. You acknowledged that sometimes our counterterrorism 
training and assistance is used by governments in the Sahel ``to take 
on antiregime rebels successfully.'' When we provide training or 
assistance under the Trans-Sahara Counterterrorism Partnership (TSCTP), 
what mechanisms do we have to monitor and account for how governments 
use these new capabilities? And can you provide a thorough description 
of ways in which we have witnessed the use of our assistance by 
governments against groups not connected to al-Qaeda in the Islamic 
Maghreb (AQIM)? This may be classified if necessary.

    Answer. The fundamental goal under the Trans-Sahara 
Counterterrorism Partnership (TSCTP) remains that our assistance be 
used specifically for counterterrorism (CT) purposes but we recognize 
that such assistance, like training and equipping, is fungible. We 
constantly monitor how our assistance is used and we remain vigilant to 
any reports of abuse. We do make it clear that our assistance comes 
with the price tag of the military operating under civilian control and 
that the military operate under respect for human rights norms in a 
bona fide and concrete manner.
    We establish 505 End Use Agreements on how equipment can be used 
and we vet the personnel to be trained under the auspices of the Leahy 
law. We may also enter into a Memorandum of Understanding that will 
spell out the intended use of this equipment or training. Use of this 
equipment and the activities of the units is monitored on a continual 
basis by our embassies, Global Combatant Command personnel, and by 
visits from Washington-based officials. If a country acts in 
contravention to these agreements we can place future engagement on 
hold until the situation is clarified. We can also cancel or redirect 
engagement as we have done in Mauritania and Chad in the past and are 
doing currently with Niger.
    The U.S. trained and equipped one Niger mobile light infantry 
company in 2005, funded during the pilot program to the TSCTP, the Pan 
Sahel Initiative. This company was active in providing security along 
Niger's northern border, but was, at times, deployed against the 
Nigerien Movement for Justice (MNJ) rebels which was conducting a low-
intensity fight predominately consisting of skirmishes, ambushes, and 
mining of roads. At the time, the MNJ was a Tuareg-based rebel group 
challenging central government authority over the issue of perceived 
economic marginalization. The democratically elected Government of 
Niger, with U.S. encouragement that included a conflict negotiation 
workshop facilitated by the U.S. Institute for Peace, pursued several 
rounds of peace talks with the MNJ and other rebel groups, resulting in 
a de facto cease-fire, weapons handovers, and an executive order 
providing amnesty to rebels and those who supported them, including 
members of the Nigerien Armed Forces. In the end, the U.S. strategy was 
successful in encouraging a peaceful end to the conflict.
    In Chad, units trained and equipped the Pan Sahel Initiative, known 
as PSI units, were utilized by the Chadian Government to thwart a 
Sudan-backed rebel takeover of the capital and government; i.e., during 
a national emergency. Upon learning that the government placed PSI 
units under a different chain of command with a primary mission that 
did not have CT as a core mission, we objected and halted assistance. 
Eventually, Chad reorganized again and placed its PSI units under an 
appropriate chain of command after the United States made it clear that 
further assistance would be impossible without this change.
    Question. In your assessment, what motivated AQIM's predecessor, 
the Salafist Group for Preaching and Combat, to formally merge with al-
Qaeda in 2006? And without getting into classified information, how 
would you characterize the current relationship between AQIM and al-
Qaeda?

    Answer. The decision to affiliate followed after the Salafist Group 
for Preaching and Combat (GSPC) was increasingly marginalized by 
Algeria's successful amnesty program and security operations. We 
believe that first and foremost the GSPC saw linkage with al-Qaeda as 
an attempt to enhance its recruiting ability by co-opting the name of a 
larger, more notorious, and more famous terrorist organization, a move, 
likely to secure steadier streams of financial and other types of 
support. Shortly before and after the announced merger, AQIM conducted 
an attack on a western oil worker bus (10 December 2006) and a car bomb 
attack on the Algerian Prime Ministers office (April 2007) and the 
attack on the United Nations compound in December 2007, which garnered 
significant media attention, which seemed to underscored the new link 
with al-Qaeda. However, AQIM has not been able to sustain these types 
of large jihadist operations. AQIM has published many public statements 
that heavily borrow from al-Qaeda's style and rhetoric, especially as 
it pertains to a call for jihad in North Africa and the Sahel. However, 
AQIM is different in that it still retains GSPC's focus on traditional 
targets of the Algerian State as a practical matter while taking haven 
in the northern regions of neighboring Mali.

    Question. You mentioned a meeting with European partners in Paris 
last month. Given France's historic relationship with many of the 
countries in the region, its partnership in our overall 
counterterrorism strategy is particularly important. Do we have the 
same strategic priorities as France in the Maghreb and the Sahel? And 
what is the day-to-day working relationship like between our embassies?

    Answer. Strong French ties in this region remain pivotal and France 
has expressed a sincere desire to cooperate with the United States in 
this area of the world. The Paris meeting in September was the first 
senior-level meeting that mapped out a way forward for such 
cooperation.
    Our strategic counterterrorism (CT) priorities in this region are 
very similar, focusing as they do on building law enforcement, military 
capacity and development. We expect that further meetings in the new 
year will spell out more specific areas of cooperation in followup to 
the information that we exchanged about our respective activities in 
the reason.
                                 ______
                                 

 Responses of Deputy Assistant Secretary Vicki Huddleston to Questions 
                Submitted by Senator Russell D. Feingold

    Question. As you've said, DOD is engaged, at different levels, in 
training and equipping militaries across the Sahel for purposes of 
counterterrorism. However, is there a risk that these militaries could 
misuse their new capabilities, particularly to suppress groups with 
arguably legitimate political grievances or opponents of governments? 
To what extent is that risk considered before DOD decides to provide 
training or equipment, and what steps can be taken to minimize that 
risk?

    Answer. DOD conducts a wide range of military cooperation 
activities with partner nation militaries in Africa. These activities 
span the spectrum from relatively simple outreach efforts (e.g., 
seminars and conferences), to training events and on to joint/combined 
exercises. The principal objective of DOD military cooperation 
activities is to work with our partner militaries in Africa to foster 
stability, build capacity, and reduce threats. DOD achieves these goals 
by promoting civil control and defense institutional reform, developing 
professional militaries, and building or strengthening African security 
capacities.
    While military capacities can be a foundation for stability and 
security in a society, there is always a risk that the capabilities, if 
misused or misdirected, could be used to suppress legitimate political 
processes or oppress rightful civil activities. DOD takes this risk 
seriously, and works closely with the State Department to mitigate the 
possibility of abuse. Both DOD and State Department monitors what Chad 
does with the assistance the United States provides and does not 
hesitate to inform the Chadian Government of the consequences should 
any abuse be detected. In every case, DOD military cooperation events, 
including section 1206 train and assist programs are closely 
coordinated with the respective U.S. Embassy as well as
the State Department's Bureau of Democracy, Human Rights, and Labor to 
ensure that partner nation military participants; i.e., individuals and 
units, are appropriately nominated, reviewed, and vetted by the State 
Department in accordance with the requirements of the Leahy amendment 
prior to their participation in a DOD activity.

    Question. Chad is perhaps the most extreme example in this regard. 
Since 2005, we have provided some training and equipment to Chad 
through 1206 funds. However, DOD recently briefed committee staff that 
it had to redirect some equipment originally intended for Chad because 
we learned that a unit we had trained for counterterrorism was being 
used for unrelated domestic purposes. As you know, Chad's security 
forces have a poor human rights record with reports citing torture, 
rape and the use of excessive force as well as the use of child 
soldiers. Looking to the future, under what conditions, would we seek 
to provide new training or equipment to the Chadian military?

    Answer. This question refers to DOD plans to implement two section 
1206 projects for Chad in FY07. The first was a tactical airlift 
equipment package of $1.7M, which was processed and delivered. The 
second was a combined $6.0M equipment and training package for a 
counterterrorism (CT) unit in Chad. Delivery of the equipment to the 
Chadian unit, a former recipient of U.S. assistance under the Pan Sahel 
Initiative (PSI), was initially delayed due to instability surrounding 
Chadian rebel attacks into Chad in February 2008. Following the attacks 
and the government's successful effort to reestablish control over the 
capital city of N'Djamena and other key areas, the government placed 
their CT unit under a new chain of command with the primary mission of 
regime protection.
    In response to this unit's command and mission reorganization, the 
USG interagency suspended CT cooperation with the unit due to concerns 
that Chad had shifted the unit's primary focus away from CT activities. 
By spring 2009 it was not clear when or if the CT unit would return to 
its previous organization and CT mission, and DOD was incurring monthly 
storage fees for the purchased equip-
ment. DOD and the State Department jointly decided in May 2009 to 
redirect the original equipment and training package to Nigeria, 
thereby reducing the FY09 section 1206 program cost by the amount of 
the Chad package. The Secretary of Defense approved, the Secretary of 
State concurred, and Congress was notified of the redirection.
    In July 2009, Chad realigned the CT unit back into the main Chadian 
Army chain of command and restored its primary mission to CT, which 
allowed DOD to consider a measured resumption of the suspended security 
cooperation program. DOD monitors what nations do with U.S.-provided 
military training or equipment. DOD will continue to work closely with 
the U.S. Embassy in N'Djamena and the Bureau of African Affairs at the 
State Department to mitigate the risk of possible abuse by the Chadian 
military. DOD also will work closely with the State Department to 
ensure that Chadian military participants, both individuals and units, 
are appropriately nominated, reviewed, and vetted in accordance with 
the requirements of the Leahy amendment prior to their participation in 
a DOD activity.

    Question. As you know, there has been some suspicion throughout the 
continent about AFRICOM's activities and intentions. As DOD carries out 
its work in the Sahel, how are you seeking to address these suspicions? 
What public diplomacy activities is DOD carrying out, and how are those 
efforts coordinated with the efforts of State and USAID?

    Answer. DOD provides information to the public regarding military 
cooperation activities in Africa principally through its public affairs 
system and the local U.S. Embassies. This public affairs effort is 
conducted mainly through U.S. Africa Command, which coordinates all DOD 
military cooperation activities in Africa. U.S. Africa Command 
maintains a robust public affairs Web site (www.africom.mil) which 
outlines the purpose, mission, leadership, and organization of the 
command, as well as providing updates on U.S. Africa Command 
activities, such as senior leader travel on the continent, conferences 
and seminars, training events, and exercises. This Web site also 
provides a discussion-thread forum by which the public can post 
comments as well as questions that can be addressed by U.S. Africa 
Command personnel--in many cases by the commander himself. In addition 
to this Web site, U.S. Africa Command's Public Affairs office works 
closely with U.S. Embassies to prepare, coordinate, and support press 
coverage, both international and local, of DOD activities and events in 
Africa.
    DOD works closely with U.S. Embassies in the region in support of 
the State Department's public diplomacy efforts. U.S. Africa Command 
has deployed military personnel to several regional embassies to ensure 
the official message being disseminated is consistent with U.S. foreign 
policy and national security objectives. These Military Information 
Support Teams coordinate closely with the Chief of Mission and Public 
Diplomacy officer.
                                 ______
                                 

    Responses of Senior Deputy Assistant Administrator Earl Gast to 
           Questions Submitted by Senator Russell D. Feingold

    Question. As I understand it, most of USAID's work with the Trans-
Sahara Counterterrorism Partnership is carried out by contractors or 
grantees. Are there any challenges to the fact that this work is not 
being carried out directly by U.S. Government employees? How does USAID 
oversee this work and monitor the impacts?

    Answer. Countering violent extremism is a relatively new area of 
work for USAID, and we are providing training to our officers. This 
work does not naturally fall under one technical specialty; rather it 
touches on several technical areas in which USAID has vast experience. 
TSCTP programs are cross-cutting and bring in elements of education, 
conflict mitigation, governance, and media. TSCTP targets its 
activities at youth, a population group with which USAID works 
extensively across development sectors.
    As with other USAID programming, our implementing partners--
contractors and grantees--use familiar development practices such as 
training, community development grants, microcredit, and community 
radio. Wherever possible, they work through local nongovernmental 
partners and associations as a way to promote sustainability and 
partnerships. These local organizations are becoming the primary 
partners in TSCTP implementation, sometimes involved from the initial 
design phase of activities. In some cases, it is these organizations--
not USAID or a U.S.-based NGO--that are executing the community-level 
grants.
    In the countries where USAID does not have a bilateral mission--
Niger, Chad, and Mauritania--TSCTP activities are overseen by USAID's 
West Africa Regional Mission based in Accra, Ghana, in conjunction with 
USAID's resident representatives in Niger and Chad. The program in Mali 
is managed by the bilateral USAID mission in Bamako.
    Along with reporting on the standard foreign assistance indicators 
related to counterterrorism, USAID has developed custom indicators at 
the country level to help monitor more incremental progress in TSCTP 
programs. For these indicators, our implementing partners have gathered 
solid baseline data against which progress is being monitored 
quarterly. Additionally, USAID and the Departments of State and Defense 
are utilizing more broad-based, independent polling data to gauge 
general attitudes and support for violent extremist organizations. We 
expect that this polling data will allow for a broader assessment of 
the impact of TSCTP activities. Meanwhile, the impact of the program is 
becoming evident in certain trends; for example, youth beneficiaries 
are more involved in their communities and are working to involve their 
peers in positive and constructive activities.

    Question. About how many staff in USAID work on programs of the 
Trans-Sahara Counterterrorism Partnership in, respectively, Washington 
and in each of the participant countries?

    Answer. There are seven USAID staff working on TSCTP programs: An 
advisor based in Washington to provide technical support; a program 
manager and program assistant in Niger; one program manager and program 
assistant in Chad; a program manager and program assistant in Mali; and 
a regional program manager based in the West Africa Regional mission 
based in Accra, Ghana. While all of these staff manage TSCTP programs 
as their primary duties, they all have additional program 
responsibilities.

    Question. Do you think USAID's limited presence in the region 
affects its ability to be an equal partner in shaping and implementing 
the Trans-Sahara Counterterrorism Partnership?

    Answer. The USAID West Africa Regional mission based in Accra, 
Ghana, manages numerous programs in West African countries where USAID 
does not have a permanent mission; the TSCTP program is not unique in 
this respect. In the countries where there are TSCTP programs, other 
development projects are being implemented with strong results. For 
example, in Chad, USAID efforts focus on governance, elections, and 
conflict mitigation and reconciliation.
    In these countries, USAID's resident representatives work closely 
with the embassies, other agencies, and implementing partners to ensure 
the appropriateness and quality of TSCTP program activities. In fact, 
the way USAID operates in close partnership with local organizations at 
the grassroots level makes it uniquely qualified to undertake these 
activities. However, we would prefer a greater level of coverage on 
TSCTP and are looking to increase the number of officers working on the 
program.

                                  <all>

</pre></body></html>
